<html>
<title> - TRAFFICKING IN WOMEN AND CHILDREN IN EAST ASIA AND BEYOND: A REVIEW OF U.S. POLICY</title>
<body><pre>[Senate Hearing 108-105]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-105

 TRAFFICKING IN WOMEN AND CHILDREN IN EAST ASIA AND BEYOND: A REVIEW OF 
                              U.S. POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              APRIL 9, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman

LAMAR ALEXANDER, Tennessee           JOHN F. KERRY, Massachusetts
CHUCK HAGEL, Nebraska                JOHN D. ROCKEFELLER IV, West 
GEORGE ALLEN, Virginia                   Virginia
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
                                     JON S. CORZINE, New Jersey

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Haugen, Mr. Gary A., president and CEO, International Justice 
  Mission, Washington, DC........................................    26
    Prepared statement...........................................    30
Hughes, Dr. Donna M., professor and Carlson Endowed Chair in 
  Women's Studies, University of Rhode Island, Kingston, RI......    19
    Prepared statement...........................................    23
Miller, Hon. John R., Senior Advisor and Director, Office to 
  Monitor and Combat Trafficking in Persons, Department of State, 
  Washington, DC.................................................     4
    Prepared statement...........................................     7
    U.S. Government's International Anti-Trafficking Programs for 
      Fiscal Year 2002...........................................     9
    Response to an additional question for the record from 
      Senator Feingold...........................................    42
Voinovich, Hon. George V., U.S. Senator from Ohio, prepared 
  statement......................................................     3

                                 (iii)

  

 
TRAFFICKING IN WOMEN AND CHILDREN IN EAST ASIA AND BEYOND: A REVIEW OF 
                              U.S. POLICY

                              ----------                              


                        WEDNESDAY, APRIL 9, 2003

                           U.S. Senate,    
                 Subcommittee on East Asian
                               and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:45 p.m. in 
room SD-106, Dirksen Senate Office Building, Hon. Sam Brownback 
(chairman of the subcommittee), presiding.
    Present: Senator Brownback.
    Senator Brownback. I call the hearing to order. Thank you 
all for being here today, and I can't start this hearing 
without really recognizing the events that are taking place 
half a world away in Baghdad, with the celebration of liberty 
that is occurring in that country. We have all watched for some 
period of time the developments taking place, and hoping and 
praying for the fall of that regime and liberty to be able to 
spread, and it's taking place now. It's flourishing in a great 
way.
    I say that from watching the developments and also from 
talking to the parents of a sergeant from Kansas who was killed 
in the conflict about a week ago. I spoke to his parents this 
morning about him, about his life, about the contributions that 
he had made, and they noted that it all is in the cause of 
liberty, and liberty is a very expensive thing, and that they 
hated losing him, but in this cause they as a family are 
honored and recognize what his contribution is doing today, 
even as we speak, and we recognize and thank him and all the 
people in the services that have stood so tall in that 
conflict.
    Today, we will be hearing from two panels reviewing U.S. 
policy on international trafficking in women and children in 
East Asia and beyond. We have two important and distinguished 
panels today. On our first panel we have with us the Director 
of the Office to Monitor and Combat Trafficking in Persons, 
former Congressman John Miller of Washington, glad to have you 
here, Congressman. Our second panel is Professor Donna Hughes 
of the University of Rhode Island, where she serves as the 
Carlson Endowed Chair in Women's Studies, and Gary Haugen, 
president and CEO of International Justice Mission, an 
important organization in our discussion.
    Upon the conclusion of the hearing on trafficking, we will 
move to the nomination of Pamela Slutz to be the U.S. 
Ambassador to Mongolia.
    Before I move on to my statement I would like to note the 
absence of a particularly remarkable individual who I worked 
with closely for many years and developed a very fond 
relationship with, and that's Senator Paul Wellstone. As you 
all know, Paul and his wife were tragically killed in a plane 
crash last year.
    The trafficking issue is one in which we worked on 
together, and very successfully. It was actually his wife, 
Sheila, that had pointed out the issue first to Paul, and then 
to both of us. He took the issue up, we took the issue up in 
our office, worked together, formed a coalition, and were able 
to get that legislation through and worked very closely and 
tirelessly in that, and he was a great friend and a great 
colleague, and I miss him, and he is frequently in my prayers, 
as I hope he is in yours.
    Before we get to the first panel, I'd like to read some 
prepared remarks to emphasize to my colleagues what I think is 
a worrisome topic of great moral importance, but one that also 
has implications for the security of the United States. That 
is, in terms of the collusion of crime networks with terrorist 
groups, and in addition, the connection of trafficking and the 
spread of HIV/AIDS, the global pandemic. It is first and 
foremost an issue of human rights and compassion, but second 
will have a profound impact on the security of the United 
States.
    I have asked Congressman Miller to be here primarily to 
introduce or reintroduce the issue to some of my colleagues. I 
believe he can put it in stark terms and will put forward a 
compelling case. There are a number of tales, information from 
women that have been taken and have been forced into this 
experience of trafficking, of being trafficked, and trafficked 
into prostitution.
    There are several areas which we should really focus on 
today. Congressman Miller is fighting to ensure his office has 
credibility and its functions are effective. Some of this is a 
struggle against bureaucratic forces that see the mission of 
the trafficking in persons [TIP] office as conflicting with 
their mission in promoting the United States abroad.
    Congressman Miller, not long on the job, was baptized by 
fire when the TIP office held a conference entitled, 
``Pathbreaking Strategies in the Global Fight Against Sex 
Trafficking.'' At that time, President Bush signed a national 
security Presidential directive to advance the United States 
Government's fight against trafficking in persons by 
establishing the President's Interagency Task Force to Monitor 
and Combat Trafficking in Persons. This directive underlined 
that prostitution and sex tourism are inherently harmful and 
dehumanizing. These inhumane practices cause much of the 
trafficking in the world and amplifies the spread of HIV and 
other diseases.
    The directive continued by stating the President's 
commitment to vigorously enforce U.S. laws against traffickers, 
raising awareness in the U.S. and abroad about trafficking and 
identifying, protecting, and assisting victims. More 
importantly, the President emphasized the importance of using 
the full range of our diplomatic and foreign policy arsenal to 
work with other nations, the U.N. and other multilateral arenas 
to draft and enforce laws against trafficking.
    In addition, the Congress passed in a consolidated 
appropriations resolution, the omnibus appropriations bill, a 
measure which would create a senior policy operating group of 
senior officials designed, designated by the interagency task 
force to oversee the coordination of activities regarding 
policy implementation which includes grants and associated 
policies.
    This group is chaired by Congressman Miller and I think 
gives him some substantial authority to do his job. I think 
this is extremely important for my colleagues to understand. 
Today, I hope we can give him a forum to explain what his level 
of commitment is and how he plans to run this group. He 
represented the Seattle area from 1985 to 1993 in the House of 
Representatives, and while there he distinguished himself in 
the human rights agenda and served on the House Foreign Affairs 
Committee and on the Congressional Human Rights Caucus and I 
know he hasn't lost any of his fight.
    [A statement submitted for the record by Senator Voinovich 
follows:]

           Prepared Statement of Senator George V. Voinovich

    I thank the Chairman, Senator Brownback, for calling this hearing 
to order to examine the issue of trafficking in human beings. I am 
deeply concerned with this problem, which affects more than half a 
million people every year--most of whom are women and children. Some 
estimates put the number even higher, suggesting that as many as four 
million people are victims of trafficking each year. This deserves and 
demands our attention, and I am glad that we are gathering here today 
to talk about what our government can do to help curb this disturbing 
trend.
    During my time in the Senate, I have been pleased to work with 
Senator Brownback to call attention to the problem of human 
trafficking. He has been one of this body's strongest leaders on this 
issue, and I am glad to have the opportunity to continue to work with 
him as a member of this subcommittee.
    As the Chairman knows, the reach of worldwide trafficking is not 
limited to East Asia and other parts of the world. It can and does, in 
fact, impact us here in the United States. Reports tell us that as many 
as 50,000 victims of trafficking are estimated to reach U.S. soil 
annually.
    Additionally, we must be mindful of where we could--perhaps 
unknowingly--be part of the problem. Just last year, WEWS-TV Channel 5 
(ABC) in Cleveland and WJW-TV Fox 8 in Cleveland reported on victims of 
trafficking in South Korea, where U.S. soldiers were patronizing houses 
of prostitution in which women were forced into prostitution in order 
to buy their freedom. I joined with Representative Chris Smith and 
other members of the U.S. Helsinki Commission in a letter to Secretary 
of Defense Donald Rumsfeld requesting a comprehensive investigation 
into this matter. We must do all we can to end this illicit activity--
not to encourage it.
    Due to our efforts, the Defense Department has launched an 
investigation into this issue in Korea and other parts of the world. 
The DOD Inspector General had a team on the ground in South Korea last 
month, and I am anxiously awaiting their report. It is my understanding 
that a team has also been sent to Bosnia-Herzegovina to look into 
allegations of illicit activity taking place there.
    While world attention is focused on urgent challenges to security 
and stability in Iraq and North Korea, we must also ensure that we do 
not drop the ball on this pressing issue. Today's hearing reminds us of 
the need to address the problem of trafficking in human beings, and I 
thank the witnesses for taking time to be here. I look forward to their 
testimony.
    Thank you, Mr. Chairman.

    Senator Brownback. Congressman Miller, we're delighted to 
have you here in this new capacity, and look forward to your 
statement.

STATEMENT OF HON. JOHN R. MILLER, SENIOR ADVISOR AND DIRECTOR, 
OFFICE TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Mr. Miller. Thank you, Mr. Chairman. As someone who was 
just sworn into office last month, it is an honor to testify 
before your committee. I have some written testimony that I'm 
going to submit for the record.
    Senator Brownback. Without objection, it will be included 
as part of the record.
    Mr. Miller. I realize you have spent years on this issue, 
while I have spent months, but in response to your and your 
staff's instruction, I will orally give you some of my thoughts 
on the general nature of the challenge to set the framework.
    Less than 3 years ago, the Members of the Senate, led by 
you, Senator Brownback, and the late Senator Wellstone took 
what I believe is a momentous step. Many Americans at that time 
thought slavery had ended with the American Civil War, but you 
knew otherwise.
    You and your colleagues probed, you listened, you 
investigated, and you learned that slavery based on color may 
still exist for thousands in the African country of Mauritania, 
that slavery based on debt bondage still exists for hundreds of 
thousands on the farms of India, in the brick kilns of 
Pakistan, and in the charcoal camps of Brazil, that slavery 
based on forced labor still exists for thousands in homes and 
factories from the Caribbean to the Pacific Islands, that 
slavery based on impressment into armies still exists for 
thousands of young men from Sri Lanka to Uganda, that slavery 
tied to capturing and starving jockeys for camel races still 
exists in the Arabian Peninsula.
    And most of all you learned, or relearned, about the 
fastest-growing form of modern-day slavery, sex slavery, that 
hundreds of thousands of women and girls are trafficked all 
over the world, deceived, seized, beaten, raped, infected with 
HIV/AIDS so that organized crime that you have just referred to 
can gain billions of dollars every year.
    You heard such moving testimony from victims of bodies 
demeaned, of spirits trampled, and souls destroyed, and 
unfortunately the world continues to abound with such stories, 
which the dedicated staff in my office hear all the time, and 
I'm just going to take a moment to tell two or three.
    The recent issue of Catholic Women Magazine recounts the 
story of Sasha, a 26-year-old waitress in a Czech town who 
accepted the promise of a young man that she could make more 
money working as a waitress and dancer in Germany. She would go 
for a few months, she told her family, and return with a few 
thousand dollars. By the time she ended up in the red light 
district in Amsterdam, Holland, she had been abused and raped 
and her family threatened, and she had also made over $70,000 
for her captors before her release.
    Or take the story of Mercy that my staff just told me 
about. Like many Nigerian women, a friend of Mercy's family 
promised her a job, arranged to smuggle her into Italy. Upon 
her arrival, Mercy was told she had a $50,000 debt, to be paid 
off by servicing a dozen men a night, and when Mercy resisted 
she was gang-raped and her family threatened. Mercy did escape, 
with the help of the Catholic Church. Three weeks after 
speaking about her experience to human rights groups, her 
sister was killed in Florence.
    Or take Dacey. Last spring, Dacey, a 14-year-old girl, was 
tricked into leaving her home in Burma during a school break 
with the promise of a job in a noodle shop in Northern 
Thailand. A Thai police officer who was part of the scheme was 
even kind enough to give her a ride in his truck. Dacey was 
sold into a brothel, where she was raped by seven men on the 
first night. The first customer paid extra to rape a virgin, 
and he insisted tape be placed over Dacey's mouth to muffle the 
screams. We know about this because Dacey was later rescued, 
due to the efforts of the International Justice Mission, and 
you're going to hear from its director shortly.
    And just last October in Seattle--and this was when I was 
thinking about taking this job--the U.S. Attorney indicted 
eight men for operating a sex slavery ring. Same familiar 
story: young Asian women lured to Seattle with false promises, 
schooling and jobs, then coerced into prostitution to pay off 
alleged travel debts, and at least 14 women imprisoned in a 
Seattle brothel and forced to service hundreds of men. The only 
respite came when they were transported back and forth between 
brothels in Seattle, Portland, and Los Angeles.
    Well, you, Senator, and your colleagues, you heard this 
kind of testimony 3 years ago and you acted. You said slavery 
must be abolished, but you said more than that in the 
Trafficking Victim Protection Act [TVPA]. You said the United 
States must lead. This body, the U.S. Senate, recognized that 
our Declaration of Independence, our Judeo-Christian heritage, 
and numerous international covenants all meant that we must 
lead, and you and your colleagues realized that if we, the 
United States, did not lead, nobody would. The U.S. Senate 
appreciated that here on this issue our interests and our 
values coincide, that a world without slavery would not only be 
a more decent world, but in the long term a more secure and 
peaceful world for the United States.
    Many citizens helped you in the process of drafting that 
legislation. To name just a few, the witnesses who join me 
today, Gary Haugen and Donna Hughes, activists like former 
Congresswoman Linda Smith and Laura Lederer and Michael 
Horowitz, and a broad coalition of faith-based and feminist 
organizations from the Salvation Army to NOW joined together to 
fight this scourge.
    And when, less than 3 years ago, you determined that the 
United States would lead the fight against world slavery, you 
asked U.S. Government agencies to do more here in the United 
States and you created the office I have just joined. You told 
us to start programs abroad in prevention, prosecution, and 
protection, with both governments and charitable organizations. 
No country in our world has done enough to stop slavery, in my 
opinion, and that includes the United States, but now, under 
your leadership and the leadership of President Bush and 
Secretary Powell and Attorney General Ashcroft we are starting 
to speak out and fight in this war.
    Efforts are underway to help other governments and 
charitable groups, including many faith-based ones, to fight 
this scourge. Whether it's educating potential victims to be 
wary of job offers such as Miramed does in Russia, or working 
to rehabilitate victims such as Shared Hope or Catholic Relief 
Services does in India, or working with police in rescuing 
victims and prosecuting the traffickers, such as the 
International Justice Mission does in Southeast Asia, private 
charitable organizations, more and more with U.S. Government 
support, play a powerful role and with our help can do even 
more.
    This year, the U.S. Department of Justice will, pursuant to 
the law you passed, do an assessment of how the United States 
is doing in the fight against slavery and where we can do 
better and, just as important, by your mandate every year the 
State Department issues a report, prepared by my office, on how 
countries are doing around the world on this crucial human 
rights issue.
    The report, as you well know, is divided into categories, 
those countries doing OK, those doing a mediocre job, and those 
who are failing. For the first time, those in the last category 
this spring, unless they move quickly, will face the loss of 
nonhumanitarian and non-trade-related aid unless given a waiver 
in the national interest by the President.
    In compiling this report, my office will try to be 
objective and fair, consistent with our role as advocate, not 
for countries, but for the slaves. Just 4 months ago, President 
Bush followed up on your work by issuing an Executive order 
making the fight against all modern-day slavery a priority for 
all U.S. agencies and putting this government on record against 
prostitution as contributing to the phenomenon of sex slavery, 
and just 2 months ago, as you have mentioned, the Congress 
passed further legislation strengthening the coordinating role 
of my office over grants in this field, and asking me to chair 
a senior operating group from many agencies to develop grant 
policies.
    The people in my office welcome the platform you have 
created, Senator, and I welcome the responsibility you have 
given my office. Right now, we are a small group of 11 or 12 
professionals who, because of your leadership, have been given 
the chance to help our country make history.
    Senator, I am told your former colleague, Paul Wellstone, 
after listening to the victims at the first committee hearings 
on slavery, said that it was the most moving experience that he 
had had in his years as a U.S. Senator, and nothing would be a 
better memorial to a U.S. Senator than the Trafficking Victim 
Protections Act legislation which you passed, and the effective 
implementation of that act, and I will do everything possible 
to make that a fitting memorial.
    Mr. Chairman, I have heard you keep in your office a lock 
from a brothel in Bombay, India, that was used to imprison 
girls younger than your eldest daughter. Our responsibility, 
the responsibility of my office, the responsibility of the 
citizens and the nonprofit group people that are gathered here 
today, the responsibility of people around the world is to stop 
this from happening to more young girls.
    All of us know that, given age-old practices and the role 
of organized crime, it will not be a short task to end modern-
day slavery, but with your help we have taken the first steps. 
As the struggle continues, we should remember William 
Wilberforce, the English evangelical and Member of Parliament 
who struggled for 30 years in the early 19th century before 
succeeding in abolishing the slave trade between Africa and the 
New World. If we have Wilberforce's perseverance and the spirit 
of our own 19th century abolitionists who fought slavery based 
on color, I believe that working together we can and will 
triumph over modern-day slavery.
    Thank you for your kind attention.
    [The prepared statement of Mr. Miller follows:]

Prepared Statement of Hon. John R. Miller, Director, Office to Monitor 
         and Combat Trafficking in Persons, Department of State

    Thank you, Senator Brownback, for this opportunity to discuss the 
United States' efforts to fight trafficking in persons in East Asia. 
Let me start by thanking you for your visionary leadership in combating 
human trafficking worldwide, which you often say, is truly the modern-
day face of slavery. As the recently appointed director of this office, 
which you helped establish through your landmark legislation, I look 
forward to working with you in this continuing fight to eradicate human 
trafficking worldwide.
    I would like to give an overview of our anti-trafficking efforts, 
particularly regarding the East Asian and Pacific region. The focus in 
East Asia and Pacific is concentrated on the following strategies:

  <bullet> Emphasizing the importance of continuing and expanding 
        regional collaboration.

  <bullet> Engaging governments bilaterally to bring all possible tools 
        to bear to encourage and assist countries in addressing their 
        trafficking problem.

    To date, U.S. engagement on trafficking in the East Asia Pacific 
region has generated positive progress, but the countries in the region 
need to do much more. As you know, most of the countries in the region 
face serious trafficking problems. The good news is that almost all of 
these governments are aware of this transnational problem and seek 
cooperative solutions. The diversity of the region means there is no 
one-size-fits-all model for a response to the trafficking problem. 
Governments are at different points along the continuum in responding 
to this arduous task.
    As noted, my office seeks to expand and encourage cooperation 
between and among neighboring governments. After working closely with 
the governments in the Mekong region, we have seen, for example, the 
beginnings of cooperative efforts between governments to ensure that 
trafficking victims are humanely treated and where appropriate, are 
helped to return voluntarily to their countries of origin.
    Similar bilateral and regional cooperation is occurring as 
governments more fully recognize that trafficking in persons is a 
transnational crime. There have been positive practical responses by 
governments. Governments have begun to build capacity by exchanging law 
enforcement information, enhancing their ability to better challenge 
the international syndicates. For example,Thailand has begun taking 
measures to build a transnational law enforcement unit. This 
development has the potential to demonstrate the Thai government's 
long-term commitment to regional law enforcement. Also, such 
cooperation should help governments improve their own domestic law 
enforcement efforts.
    The Government of Indonesia hosted the first Regional Ministerial 
Conference on People Smuggling, Trafficking in Persons and Related 
Transnational Crime last year. The Second Regional Ministerial 
Conference on People Smuggling, Trafficking in Persons and Related 
Transnational Crime will be held on April 29-30 in Bali. We support 
Indonesia's effort to confront trafficking issues in a pragmatic and 
results-oriented fashion, and we look forward to participating in the 
next conference as an observer. We consider this to be a positive 
opportunity to stimulate much-needed regional cooperation.
    These are important steps forward, but many challenges remain. 
Generally, domestic law enforcement efforts, particularly 
``prosecutions'' are the most problematic area in combating trafficking 
in the East Asia and Pacific region. We have communicated with a number 
of governments, including Thailand, Cambodia, and Indonesia, that much 
more needs to be done in this respect. We have emphasized that 
prosecution efforts, in addition to protection and prevention measures, 
are an important component in their tier placement on the annual 
Trafficking in Persons Report.
    A related concern is that a lack of transparency and weak 
institutions are hampering the effectiveness of efforts to combat 
trafficking in some countries. We have expressed these concerns to our 
partners and are working vigorously to help them address these broader 
issues. We recognize that trafficking networks build up over time and 
will take some concerted long-term efforts to dismantle. We do not, 
however, see these systemic problems as an excuse for weak political 
will. In this context, we have clearly communicated to relevant 
partners that any complicity of public officials in trafficking must be 
addressed urgently.
    Simply stated, we are engaged in a vigorous fight to eradicate 
trafficking in persons, which is a modern day form of slavery. Key 
actors throughout the region--government officials, activists and NGOs, 
and engaged citizens--are with us in this anti-trafficking fight, and 
we continue to expand our cooperation with these friends.
    We have the assistance of some governments in the region, which 
like the U.S., are providing program assistance in the fight against 
trafficking. Like the U.S., they also face their own trafficking 
problems at home. For example, we are developing closer cooperation 
with destination countries such as Australia, Japan and South Korea, in 
funding anti-trafficking programs in source and transit countries. 
Australia, for example, is spending $6.4 million in the region to fight 
both human trafficking and child sex tourism. After a review of their 
trafficking projects in 2001, Australia developed a pilot program to 
build the capacity of South East Asian countries, coordinated through a 
workshop of representatives from sponsored countries, and including the 
U.S. Government as a participant. The six diverse components of the 
project range from boosting law enforcement capacity in Cambodia to an 
integrated early detection system in Laos.
    During the 2002 fiscal year, the U.S. Government approved 
approximately $11 million for anti-trafficking programs in the East 
Asia Pacific region during the 2002 fiscal year, with funds supplied 
from the Departments of State, Labor, and USAID. Of this amount, $5 
million came from the Department of State from INCLE, ESF and MRA 
funds. These programs were designed to improve the capacities of 
governments and NGOs to fight trafficking by assisting law enforcement, 
providing protection and assistance to victims, and bolstering 
prevention efforts. Such programs include helping the Government of 
Vietnam to develop a national plan of action. Other measures include a 
program in Laos promoting education and awareness-raising on the 
dangers of trafficking in the villages; supporting victims' shelters in 
Vietnam; and, sending technical experts from the Department of Justice 
to train Indonesian police officials on investigating trafficking 
crimes.
    There are impressive programmatic successes in the region, although 
much more needs to be done. In the Philippines, for example, the U.N. 
Center for International Crime Prevention created a National 
Coordination Project involving several components including a 
trafficking study, review of governmental efforts, and a profile 
development of trafficked women. The project addressed better 
coordination of governmental efforts so successfully, it has become a 
model for other countries in the region with a significant trafficking 
problem suffering inadequate national responses. The Department 
provided funding in FY2002 for this program to be reproduced in 
Vietnam.
    Another example of program success in the region involves child 
victim advocacy and law enforcement in Thailand. With funding from the 
Department, the Asia Foundation administered 9 projects to improve the 
capacity of NGOs addressing regional trafficking. One particularly 
notable Thai NGO is the Coalition to Fight Against Child Exploitation 
(FACE), which is in the forefront of efforts to secure convictions of 
traffickers and pedophiles. The Department funding helped FACE expand 
to include advocacy on behalf of Cambodian children trafficked into 
Bangkok. Additionally, since this funding, FACE was empowered to 
provide key data on prosecutions and investigations, previously 
unavailable.
    As you know, my office leads preparation of the Department's 
legislatively mandated Trafficking in Persons Report, otherwise known 
as the TIP Report, issued each June. In compiling this report, my 
office will maintain its high standards of objective and fair reporting 
that is consistent with our role as advocates for victims. This year 
for the first time, those countries in Tier 3 of the TIP Report will 
face the loss of non-humanitarian and non-trade related aid absent a 
national interest waiver.
    This is a good beginning, but it is only the start of a long-term 
effort. We must press for immediate action while assisting in promoting 
sustained regional and country strategies. Human trafficking is many 
insidious things. It is a human rights atrocity. It is a transnational 
crime. It is an offense against human dignity. I look forward to 
working with you combating this scourge which is counted among the 
great human rights battles of our time.
    Thank you, Mr. Chairman.

                                 ______
                                 

 [Compiled by the Office to Monitor and Combat Trafficking in Persons, 
                U.S. Department of State, February 2003]

  The U.S. Government's International Anti-Trafficking Programs \1\--
                            Fiscal Year 2002
---------------------------------------------------------------------------

    \1\ For a complete listing of all U.S. Government international 
anti-trafficking programs, please go to www.state.gov/g/tip/

                              Abbreviations
------------------------------------------------------------------------

------------------------------------------------------------------------
EAP               U.S. Department of State's Bureau of East Asian and
                   Pacific Affairs
ECA               U.S. Department of State's Bureau of Educational and
                   Cultural Affairs
ECOWAS            Economic Community of West African States
EUR               U.S. Department of State's Bureau of European Affairs
G/TIP             Office to Monitor and Combat Trafficking in Persons
CICP              UNODCCP's Center for International Crime Prevention
ICITAP            U.S. Department of Justice's International Criminal
                   Investigative Training Assistance Program
ILO               International Labor Organization
IOM               International Organization for Migration
IPEC              ILO's International Program for the Elimination of
                   Child Labor
INL               U.S. Department of State's Bureau for International
                   Narcotics and Law Enforcement Affairs
NGO               Non-Governmental Organization
OPDAT             U.S. Department of Justice's Overseas Prosecutorial
                   Development, Assistance and Training
PRM               U.S. Department of State's Bureau of Population,
                   Refugees, and Migration
SA                U.S. Department of State's Bureau of South Asian
                   Affairs
USAID             U.S. Agency for International Development
USG               United States Government
UNICEF            United Nations Children's Fund
UNIFEM            United Nations Women's Fund
UNODCCP           United Nations' Office of Drug Control and Crime
                   Prevention
------------------------------------------------------------------------


                     EAST ASIA AND PACIFIC ISLANDS

REGIONAL
Type of Program: Prosecution
Funding Agency/Bureau: Dept. of State, G/TIP
 Recipient: Royal Thai Government and IOM
Project Title: Working Group on Policy, Legislation and Law Enforcement 
    Issues
Description: Under the aegis of a regional ministerial on smuggling and 
    trafficking, two workshops will investigate legal structures and 
    law enforcement practices in East Asia. Objectives are to improve 
    regional cooperation, identify areas of improvement on law 
    enforcement, create a network of experts, and coordinate law 
    enforcement initiatives.

Type of Program: Prosecution
Funding Agency/Bureau: Dept. of State, G/TIP
Recipient: United Nations Office of Drug Control and Crime
Prevention/Crime Center Project Title: Computer-Based Training (CBT) 
    Development
Description: The Crime Center will design, develop and deliver a new 
    CBT module on trafficking for law enforcement personnel in the 
    Greater Mekong Sub-region (Cambodia, China, Lao PDR, Burma, 
    Thailand and Vietnam). This will standardize training and skills-
    development at high levels throughout the region and at a 
    significant reduction in training costs.

Type of Program: Prevention/Protection/Prosecution
Funding Agency/Bureau: Dept. of State, EAP
Recipient: Academy for Educational Development (AED)
Project Title: EAP Regional Human Trafficking Website
Description: The humantrafficking.org website serves as a repository of 
    information on efforts to combat trafficking in persons, especially 
    women and children. The website posts information about anti-
    trafficking laws and regulations, bilateral agreements to cooperate 
    in combating trafficking, upcoming conferences, best practices, 
    contact information for obtaining assistance, and other materials.

BURMA
Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, ECA
Recipient: Individual
Project Title: International Visitor Exchange Program on Trafficking of 
    Women and Children
Description: The program brings current or potential leaders in 
    government, politics, the media, education, and other fields to the 
    United States to meet and confer with their professional 
    counterparts. The International Visitor Program partners with 
    national program agencies to design and implement each program to 
    meet specific visitors' interests. Programs typically last three 
    weeks during which visitors gain an overview of programs to prevent 
    trafficking of women and children in Washington, DC followed by 
    related local programs arranged through a country-wide network of 
    Council of International Visitors.

CAMBODIA
Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, LAP
Recipient: IOM
Project Title: Awareness Campaign Project
Description: Campaigns to increase TIP awareness, presented through 
    multi-media presentations, using both video and live performances, 
    to audiences across eighteen provinces over a three-year period. 
    The information campaigns will be followed by the teaching of an 
    anti-trafficking life skill course in schools and among members of 
    village women's and children's groups at the community level. 
    Information gathered during campaigns will be used to build a 
    national counter-trafficking database to help the Ministry of 
    Women's and Veterans' Affairs (MWVA) respond to the problems of 
    trafficking in women in children.

Type of Program: Prevention, Protection
Funding Agency/Bureau: Dept. of State, PRM
Recipient: TOM
Project Title: Return Recovery and Reintegration Assistance to 
    Trafficked Women and Children: Cambodia
Description: The project aims at strengthening NGO and government 
    capacity, particularly the Ministry of Social Affairs, Labor, 
    Vocational Training, and Youth Rehabilitation (MOSALVY), to develop 
    durable reintegration solutions for victims of trafficking who 
    cannot be reunited with their families within the first several 
    months of their return to Cambodia. Technical support assistance 
    enhances partners' capacities to implement alternative care for the 
    victims, including the development of family support (counseling, 
    skills development for families), foster care, group homes, 
    orphanages, and community-based outreach networks to help integrate 
    single women with children.

Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, ECA
Recipient: Individual
Project Title: International Visitor Exchange Program on Trafficking of 
    Women and Children
Description: The program brings current or potential leaders in 
    government, politics, the media, education, and other fields to the 
    United States to meet and confer with their professional 
    counterparts. The International Visitor Program partners with 
    national program agencies to design and implement each program to 
    meet specific visitors' interests. Programs typically last three 
    weeks during which visitors gain an overview of programs to prevent 
    trafficking of women and children in Washington, DC followed by 
    related local programs arranged through a country-wide network of 
    Council of International Visitors.

FIJI
Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, EAP
Recipient: Fiji Women's Crisis Center (FWCC)
Project Title: Training and Capacity-Building Program
Description: FWCC is conducting training and capacity building for 
    organizations and individuals working to eliminate violence against 
    women. It is also publishing materials on violence against women to 
    support community education, advocacy, and lobbying and it will 
    support rural initiatives working to eliminate violence against 
    women.

INDONESIA
Type of Program: Prosecution
Funding Agency/Bureau: Dept. of State, G/TIP
Recipient: U.S. Department of Justice, ICITAP
Project Title: Training for Police, Justice, and Immigration Officials
Description: Training will improve readiness and the ability of law 
    enforcement officials to prevent and investigate trafficking cases 
    and establish standard operating procedures to identify probable 
    trafficked groups, effectively interview and assist victims, and 
    bring perpetrators to justice.

Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, EAP
Recipient: Yayasan Sains Estetika dan Technology (SET)
Project Title: Anti-Trafficking Brochures
Description: SET is working with the Ministry of Education to develop 
    prevention brochures to be presented to middle school students. 
    This Indonesian NGO believes that successful prevention requires 
    getting basic information to potential trafficking victims early on 
    in an easily understood form. The distribution of the brochures 
    will eventually extend to many children outside of the school 
    system.

Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, EAP
Recipient: International Relief and Development (IRD)
Project Title: Food for Thought: Anti-Trafficking Messages on Food 
    Packaging
Description: This project will deliver anti-trafficking messages to 
    consumers at all income and age levels. The message is reinforced 
    every time a consumer purchases a food staple. The manufacturers 
    involved in the program pay distribution costs. This is similar to 
    the campaigns in the U.S. featuring missing children on milk 
    cartons.

Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, EAP
Recipient: Legal Aid Society
Project Title: National Conference on Trafficking in Women and Children
Description: A conference was held in Jakarta in September 2002. The 
    invitees were politicians from all parties, central government 
    officials from the Ministry of Women's Empowerment, local 
    government officials from all the provinces, NGO representatives, 
    academicians, legal activists, union leaders, and media 
    representatives. The goals of the conference were to build a 
    national coalition to fight TIP, to attract media attention, and to 
    form a committee representing civil society advocacy groups.

LAOS
Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, EAP
Recipient: Village Focus International
Project Title: Awareness Raising Campaign Against Trafficking/Women's 
    Participation in Political Processes at the Village Level
Description: This project conducts awareness-raising activities in 
    selected at-risk communities, focusing on Southern Laos. Existing 
    village-based schools and other networks are used to disseminate 
    information and conduct training in cooperation with local 
    counterparts and government officials. VFI produces youth-friendly 
    information kits; forms and maintains paper puppetry groups; sets 
    up youth leadership program activities and produces video and radio 
    programs.

Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, EAP
Recipient: Consortium (includes World Education and World Learning)
Project Title: Prevention of Human Trafficking through Awareness 
    Raising and Occupational Development in Mekong Border Communities
Description: Project works to improve the Vientiane Center for Skill 
    Development to provide direct assistance to victims of trafficking 
    and youth who are vulnerable to traffickers. The Center also 
    provides vocational training for at-risk youth and awareness 
    campaigns in the target districts. The awareness messages are 
    delivered in public venues such as school buildings and temples 
    through the leadership and participation of local leaders in the 
    community.

PAPUA NEW GUINEA
Type of Program: Protection
Funding Agency/Bureau: Dept. of State, EAP
Recipient: City Mission
Project Title: Port Moresby City Mission Women's Hostel, Crisis Center, 
    and Child Abuse Center
Description: City Mission is renovating several rooms for short-term 
    crisis accommodations on a free-of-charge basis to assist those 
    suffering from abuse. The Center currently has 29 rooms, using 20 
    for a hostel and 9 rooms set aside as a refuge and child abuse 
    center, which will also house administration offices. Crisis 
    accommodations would be provided to as many as 16 victims for up to 
    three days.

Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, EAP
Recipient: Family Violence Action Committee (FVAC)
Project Title: Operational Support to FVAC
Description: Through cooperation and awareness campaigns, FVAC has 
    increased its ability to speak with authority about the extent of 
    the family violence problem. A new database has given FVAC the 
    ability to provide factual data on the extent of the problem in 
    PNG. It can be a reference and resource tool when seeking 
    cooperation from governments and NGOs.

Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, EAP
Recipient: UNDP, UNOPS, and UNIFEM
Project Title: Bougainville Women's Resource Center for the Prevention 
    of Violence Against Women
Description: This project seeks to meet the concerns of women through 
    activities such as the training of a resources person and putting 
    that person into the community to conduct sessions on the 
    prevention of violence against women. Another activity is the 
    construction and furnishing of the Bougainville Women's Resource 
    Center.

PHILIPPINES
Type of Program: Prevention/Protection
Funding Agency/Bureau: Dept. of State, EAP
Recipient: Visayan Forum Foundation (VFF)
Project Title: Halfway Houses in Manila and Davao Ports
Description: The VFF, in partnership with the Philippines Port 
    Authority, is establishing two halfway houses at the two most 
    active ports in the Philippines, Manila and Davao. The halfway 
    houses will provide temporary shelter, repatriation, referral, and 
    telephone hotline counseling services to victims. Seminars and 
    training will also be conducted to strengthen the participation and 
    awareness of strategic partners within these ports (such as police, 
    private security agencies, etc.).

Type of Program: Prevention/Protection/Prosecution
Funding Agency/Bureau: Dept. of State, EAP
Recipient: American Center for International Labor Solidarity (ACILS)
Project Title: Combating Trafficking of Women and Children in the 
    Philippines
Description: This project addresses the gaps and needs in the 
    government's anti-trafficking campaign. The project includes 
    collecting baseline information on traffickers, campaign awareness, 
    advocacy, and networking activities for improvements in prevention; 
    providing assistance to victims and vulnerable groups through 
    telephone hotlines, advocacy for funding for start-up funds for 
    domestic violence/rape shelters and crisis centers, and legal 
    assistance to improve protection; and training and capacity 
    building exercises to develop gender-sensitive officials in law 
    enforcement and justice sectors to improve prosecution.

Type of Program: Protection, Prevention
Funding Agency/Bureau: Dept. of Labor/Bureau of International Labor 
    Affairs/International Child Labor Program
Recipient: ILO/IPEC
Project Title: Supporting the Timebound Program on the Elimination of 
    the Worst Forms of Child Labor in the Republic of the Philippines
Description: This four-year project supports the Timebound Program in 
    the Philippines, which comprises a set of comprehensive and 
    integrated initiatives to show visible results in the elimination 
    of the worst forms of child labor and promotion of basic education 
    in the country in a 5-10 year period. Trafficking of children for 
    commercial sexual exploitation (CSE) purposes will be treated as a 
    cross-cutting issue in the project. Work against CSE will center on 
    Regions I (La Union, Baguio City), II (Angeles City, San Fernando, 
    Tarlac, Nueva Ecija, Olongapo), IV (Laguna, Palawan, Romblon, 
    Batangas), VII (Cebu, Toledo City, Lapu-lapu, Mandaue), and the 
    National Capital Region (Manila, Kalookan City, Quezon City, Pasig, 
    Paranaque). The project will withdraw or prevent children from 
    entering CSE and other sectors of exploitative labor and will 
    provide them with educational opportunities and health services. 
    Alternative income generation opportunities and training will be 
    provided to families.

SINGAPORE
Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, ECA
Recipient: Individual
Project Title: International Visitor Exchange Program on Trafficking of 
    Women and Children
Description: The program brings current or potential leaders in 
    government, politics, the media, education, and other fields to the 
    United States to meet and confer with their professional 
    counterparts. The International Visitor Program partners with 
    national program agencies to design and implement each program to 
    meet specific visitors' interests. Programs typically last three 
    weeks during which visitors gain an overview of programs to prevent 
    trafficking of women and children in Washington, DC followed by 
    related local programs arranged through a country-wide network of 
    Council of International Visitors.

SOLOMON ISLANDS
Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, EAP
Recipient: Solomon Islands Women's Information Communication Network 
    (SIWNET)
Project Title: Solomon Islands Women's Information Communication 
    Network
Description: SIWNET sponsors a 30-minute weekly radio program for women 
    covering a range of issues, such as domestic violence, family 
    planning, nutrition, and education. SIWNET also produces short 
    ``radio development spots'' of a minute or less that focus on 
    similar issues for daily broadcast. With additional support from 
    UNESCO, the group is creating a new series of 15-minute broadcasts 
    called ``Women Speaking to Women''. The Women's Resource Center is 
    distributing educational materials on the prevention of domestic 
    violence and functions as a central meeting place for the 
    discussion of related topics.

THAILAND
Type of Program: Prosecution
Funding Agency/Bureau: Dept. of State, G/TIP
Recipient: Thailand Criminal Law Institute (Attorney Generals Office)
Project Title: Guidelines for new laws
Description: Conduct a legal analysis to determine what steps are 
    needed to bring national law into conformance with the United 
    Nations National Convention against Transnational Organized Crime. 
    Through a series of workshops and seminars, police and other law 
    enforcement agencies will be trained on Thailand's legal 
    obligations to fight trafficking.

Type of Program: Prosecution
Funding Agency/Bureau: Dept. of State, G/TIP
Recipient: Royal Thai Police Department, Bangkok
Project Title: Strengthen Police Trafficking Unit
Description: This project will lend technical and material assistance 
    to the recently formed anti-trafficking unit of the Thai police. 
    Material includes a vehicle, computers, office items, 
    communications and video equipment.

Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, G/TIP
Recipient: Hotline Center Foundation (HCF) and Police Emergency 191
Project Title: Improvement of national hotline for TIP victims
Description: HCF and the Thai police will train emergency hotline 
    operators how to assist and protect victims of trafficking and 
    violence, especially women and children. This project will enhance 
    public awareness of the hotline and train schools on its importance 
    as a tool for public safety.

Type of Program: Protection
Funding Agency/Bureau: Dept. of State, G/TIP
Recipient: Royal Thai Government Dept. of Public Welfare
Project Title: Primary Emergency Shelter in Chiang Mai
Description: A safe house/primary shelter will be established for non-
    Thai and hill tribe women and children from a refurbished building 
    at a secure location near Chiang Mai. Transportation, interpreters, 
    psychosocial counseling and medical treatment will be provided at 
    the shelter for trafficking victims.

Type of Program: Prevention/Protection/Prosecution
Funding Agency/Bureau: Dept. of State, EAP
Recipient: The Asia Foundation (TAF), administrator for projects below 
    to improve the capacity of NGOs to address trafficking in persons.

          Subrecipient: Inter Mountain Peoples Education and Culture in 
        Thailand Association (IMPECT)
          Project Title: Citizenship Training Program
          Description: Funds collection and processing of documents for 
        citizenship applications by hill tribes people; legal services 
        for individual registrations; and administration and management 
        expenses for the organization's Citizenship Status Development 
        Section.

          Subrecipient: End Child Prostitution, Child Pornography and 
        Trafficking for Sexual Purposes (ECPAT) Foundation in Thailand
          Project Title: Alternatives to Prevent Immigrants, Hill 
        Tribes, and Local Children from Entering the Commercial Sex 
        Trade
          Description: Funds food and medical care for children 
        residing in the project's shelter; occupational and life skill 
        training for vulnerable beneficiaries; training of project 
        staff in counseling children; network meetings with other NGOS; 
        and salaries and general project administration costs.

          Subrecipient: The Hotline Center Foundation, the Gap Fai 
        Community Theater, and the Thai National Council of Women
          Project Title: Trafficking Awareness/Media Outreach Project--
        Public Awareness of Gender Issues Through Show Production
          Description: Production of popular shows (television and 
        street theater) to increase public awareness of gender issues, 
        violence against women and children, and the TIP problem.

          Subrecipient: The Coordination Center for Protection of Child 
        Rights (CCPCR)
          Project Title: Trafficking Infrastructure Development, 
        Capacity Building, and Training
          Description: Project for trafficking infrastructure 
        development, capacity building, and training. This will include 
        creation of an interview room with video equipment for child-
        friendly police/social worker interviews in Chiang Rai; one-
        year salaries for a project manager, social worker, and 
        caseworker; and other costs of the Coordination Center. The 
        project also includes workshops in Chiang Mai and Chiang Rai, 
        as well as training for the task force staff and provincial and 
        border police in Chiang Rai, Chiang Mai, and border areas.

          Subrecipient: The Coordination Center for Protection of Child 
        Rights (CCPCR)
          Project Title: Surveillance, Suppression, and Rescue 
        Operation Activities
          Description: Surveillance operations by its anti-TIP task 
        force; social worker outreach to victims; establishment of 24-
        hour trafficking help lines and duty officers; public awareness 
        activities; and rewards for info leading to the rescue of TIP 
        victims. It also includes partial police operational expenses 
        in Chiang Mai, Chiang Rai, and border areas.

          Subrecipient: The Coordination Center for Protection of Child 
        Rights (CCPCR)
          Project Title: Care and Assistance for TIP Victims
          Description: Provision of care and assistance for TIP victims 
        in Chiang Mai; salary of a primary social worker; and food, 
        water, and basic toiletries for 150 TIP victims for 120 days 
        each in primary and secondary shelters. Legal services and 
        interpreting services for non-Thai TIP victims will also be 
        provided.

          Subrecipient: National Council of Thai Women
          Project Title: Support of Pro-Bono Legal Aid for Victims
          Description: Pro-bono legal aid for victims, including four 
        professional workshops in Bangkok and three regions of 
        Thailand.

          Subrecipient: Fight Against Child Exploitation (FACE)
          Project Title: Preparation of Case and Legal Aid Assistance 
        to Pedophile Victims
          Description: FACE prepares casework and offers legal aid in 
        order to achieve prosecutions and convictions of pedophiles, 
        both foreign and Thai. It also trains police and advocates with 
        policy makers and legislators to improve TIP laws and 
        regulations. This funding will cover staff salaries, office 
        operational expenses, documentation, and travel expenses for 
        social workers in its witness protection program.

          Subrecipient: Thai Lawyers Council and the Foundation for 
        Women
          Project Title: Enhance the Capacities of Private Lawyers to 
        Protect TIP Victims
          Description: The Council provides legal networking workshops 
        and a series of seminars in order to enhance the capacities of 
        private lawyers to protect victims. Funding also supports 
        mobile legal aid.

Type of Program: Protection
Funding Agency/Bureau: Dept. of State, PRM
Recipient: IOM
Project Title: Capacity-Building on the Protection of Victims of 
    Trafficking: development of a Bi-Lateral Agreement between the 
    kingdom of Thailand and the Lao PDR on the return and Reintegration 
    of Trafficking Victims
Description: This TOM project supports the development of a bilateral 
    MOU between Thailand and Laos concerning the return and 
    reintegration of trafficked victims. The project includes workshops 
    at the national and sub-regional levels for Thai and Lao government 
    officials, a legislative review to ensure compatibility and 
    conformity of national policies with international standards, and 
    an operational mechanism for crossborder returns.

Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, ECA
Recipient: Individual
Project Title: International Visitor Exchange Program on Trafficking of 
    Women and Children
Description: The program brings current or potential leaders in 
    government, politics, the media, education, and other fields to the 
    United States to meet and confer with their professional 
    counterparts. The International Visitor Program partners with 
    national program agencies to design and implement each program to 
    meet specific visitors' interests. Programs typically last three 
    weeks during which visitors gain an overview of programs to prevent 
    trafficking of women and children in Washington, DC followed by 
    related local programs arranged through a country-wide network of 
    Council of International Visitors.

Type of Program: Protection, Prevention
Funding Agency/Bureau: Dept. of Labor/Bureau of International Labor 
    Affairs/International Child Labor Program
Recipient: International Justice Mission
Project Title: Thailand Sex Trafficking Task Force
Description: This three-year project in Northern Thailand will be used 
    to establish a Thailand Sex Trafficking Task Force to address the 
    plight of girls being trafficked for commercial sexual 
    exploitation. The project will support prevention by reducing the 
    vulnerability of the at-risk population by obtaining work permits 
    and/or citizen registration in order to facilitate their entry into 
    school or legal work. The project also will facilitate placement of 
    child and adolescent victims of trafficking into educational and 
    vocational training programs, as well as provide health and 
    psychosocial services.

Type of Program: Prevention, Protection
Funding Agency/Bureau: USAID, Bureau for Economic Growth Agriculture 
    and Trade, Office of Women in Development
Recipient: World Vision
Project Title: Response to Trafficking of Persons, Especially Women, 
    Youth and Children Along the Thai-Burmese Border
Description: To reduce the number of women, youth and children 
    trafficked from Burma to Thailand and from the borders further 
    within Thailand, this activity works to raise awareness among 
    community-based organizations, develop their capacity to design 
    community-based responses and support them in implementing those 
    responses.

VIETNAM
Type of Program: Prevention/Protection/Prosecution
Funding Agency/Bureau: Dept. of State, G/TIP
Reczpient: United Nations Office of Drug Control and Crime Prevention/
    Crime Center
Project Title: Measures to prevent and combat trafficking in persons in 
    Vietnam
Description: The project aims at strengthening the capacity of civil 
    society, law enforcement, and prosecutors to prevent, investigate 
    and prosecute cases of trafficking and related forms of organized 
    crime, including enhancing international co-operation. Also, the 
    project will assess legislative measures needed to enable the 
    ratification and implementation of the UN Transnational Organized 
    Crime Convention and its supplementary protocols.
Type of Program: Prevention
Funding Agency/Bureau: Dept. of State, LAP
Recipient: The Asia Foundation (TAF)
Project Title: Prevent and Deter Trafficking in Women and Children
Description: This project will involve research into the root causes, 
    patterns, and scope of the problem, analysis of the legal and 
    policy framework for addressing trafficking, awareness raising at 
    the community level through local branches of the Vietnam Women's 
    Union, and micro-enterprise training and revolving loans to promote 
    economic self-sufficiency among rural women.

    Senator Brownback. Thank you very much. That was a very 
strong, very powerful statement and I appreciate it, and I do 
keep a lock in my office. Gary Haugen who will testify in a 
little bit, brought that into my office a couple of years back, 
and it was an unbelievable situation he described to me, and it 
only became believable as he described it and as I saw it with 
my own eyes in different places that this does go on, and it 
was our need to address and to move forward on this, and I'm 
glad we've been able to do that, and that you take the cause up 
aggressively in your office, which you are doing, so I applaud 
your aggressive pushing of this topic.
    Congressman, I want to take you right to the issue that 
generates the most controversy about the whole area now, as far 
as within the U.S. Government, and that's the annual TIP 
report, and last year when it came out people were saying 
certain countries are on it that--certain countries are in the 
lower level categories that--well, let me back up.
    Certain countries are getting passing grades that 
shouldn't, would be the best and easiest way to put that, and 
rather than categorize or list particular countries, there's 
been criticism on the Hill, and particularly from people that 
were strongly involved in getting the legislation passed, that 
at times there's--diplomatic courtesies would be a bad way to 
put it, but diplomatic courtesies, I guess, extended to certain 
countries who are strong allies of the United States, or 
potential allies of the United States, and they're not given 
the grade that they should get in the TIP report. They're not 
graded down in the lowest categories.
    One, how do you respond to that? And two, I hope that this 
year, when the document comes out, it will be one where people 
can look objectively at the factors and say, these countries 
are where they're supposed to be because of objective factors 
and not because of any exterior issues or relationships between 
the United States and that host country.
    Mr. Miller. Well, I appreciate those comments, and one 
brief comment before I get to the heart of what you said. 
There's three categories in that report, as you know, tier 1, 
tier 2, and tier 3. I don't regard tier 2 as applauding any 
country's efforts and, as you know, in last year's report a 
majority of the countries were on tier 2 or tier 3.
    But what you said about the report being based not on 
diplomatic considerations but on the facts on whether countries 
meet the standard set out in the report, to what extent they 
don't meet them, to what extent they're making the significant 
efforts required by the report, those have to be the 
determining factors, and I will do everything in my power to 
see that that is the basis of this report, and I know the 
people in my office who have been working long and hard on this 
will do the same.
    There is a role--you mentioned allies and national 
interest. In the legislation you passed you do provide that 
after the report comes out, and after countries have 3 or 4 
months to try to take steps to improve their rating, the 
President makes a decision on partial or total or conditional 
sanctions, and he is given the authority in the national 
interest to waive sanctions, but I think that is separate from 
the report. I think what we have to do in the State Department 
in the report is call it as we see it.
    At a later stage, because of the war in Iraq or some other 
considerations, maybe the President will come to the conclusion 
that the national interest requires some partial or conditional 
waiver for some period of time, maybe a year, but that's not 
the role of my office, and that's not our role in drafting a 
report.
    Senator Brownback. Are you getting lobbied? Do you get 
lobbied now, from within the State Department? If some people 
think that a certain country is going to hit a tier 3 level, 
are they pressing you now?
    Mr. Miller. Sure. Sure, but I think that is the nature of 
how the process functions in the State Department. After all, 
we do get a lot of information from our embassies and bureaus 
on this issue. We request it, and they have the right to put in 
their 2 cents, or more than their 2 cents, and I think I can 
safely say that their perspective at times is different, or 
will be different than our perspective, at which point there is 
a process for discussing those differences.
    Senator Brownback. I just want to make clear that I know 
you hold the portfolio very important of what you are doing, 
and you're doing a great job in that trafficking office, and I 
applaud that.
    I just also want to make clear to the broader community and 
the State Department community and others that people up here 
on the Hill, they are watching this report when it comes out. 
They do want the report based upon objective factors that are 
listed within the legislation and not exterior factors that may 
be important in the broader diplomatic relationship between the 
United States and another country.
    All that is important, but the report should be based on a 
specific factual setting, and I think the credibility of the 
report is important, that it be based upon an objective set of 
factors that are known, and they've been broadcast to all these 
countries that are involved in the report, and I think the 
credibility of the report becomes at stake if we let it get 
pushed too much one way or the other by virtue of other 
factors.
    I can also say from my own personal experience in traveling 
to some of these countries that have been in a tier 2 category, 
they are paying attention to the report, and they are willing 
to work on it and take constructive comments from the United 
States.
    I can't say that 2 years ago when I was traveling and 
raising the issue in some countries, or 3 years ago, and they 
would say, well, what is trafficking in persons, what do you 
mean, sex trafficking, well yeah, it's a problem, but it's 63rd 
on our list of things to deal with, it's not in the top 10. 
Now, this is a top drawer issue, and you guys make it that way. 
For the credibility of the report, it is important that this be 
done objectively.
    Mr. Miller. When you say that countries are listening, 
you're going to have a later witness, Mr. Haugen, who I think 
will probably tell you about a country that was on tier 3. I 
don't know where they're going to end up this year, but they 
did something recently, and I think it was partly due to the 
efforts of Mr. Haugen and the International Justice Mission, 
but it was partly due to the report and partly due to a young 
Foreign Service officer sitting to my left who works in our 
department, in my office, Phil Linderman, who went to Cambodia 
and told them, and it was reported in the news media there, 
that if you don't shape up you're going to stay on tier 3, so 
there have been some results achieved maybe indirectly by the 
report, I don't think there's any question about that.
    Senator Brownback. Good. I want to note I very much 
appreciate the administration's strong position that it has 
taken about prostitution and about the problems of prostitution 
that you noted in your testimony, and I applaud the 
administration and the strong stance that it has taken.
    I want to give some statistics on the issue of prostitution 
and the spread of sexually transmitted diseases, HIV/AIDS, and 
the connection between that, because we've obviously taken up 
legislation here on the spread of HIV, the President's reported 
a global initiative, we're engaged in that legislation now, and 
it's very important and it's the right thing for us to do.
    Some of these numbers: 50 to 70 percent of the Burmese 
prostitutes in Thailand are HIV-positive. The rate of HIV 
infection is 50 percent or higher among female prostitutes in 
Northern Thailand, 40 to 50 percent of the prostitutes in 
Cambodia are HIV positive, 60 percent of women prostitutes in 
Bombay's red light district are infected with STDs or AIDS. In 
1991, Bombay's 100,000 prostitutes averaged 600,000 sexual 
contacts a day, and at that time 30 percent were HIV-positive.
    You can see that the spread of HIV associated with 
prostitution is just a clear, huge problem for us, particularly 
on the spread of something that we are trying to limit its 
spread, so I appreciate very much the administration's strong 
position that it has taken against prostitution, illegal 
prostitution, I appreciate the administration's strong position 
that it has taken on HIV, and I want to point out the 
connection of those two, and plus, the prostitution industry is 
what is providing the market for so many trafficked 
individuals, the real valuable market.
    A number of people are trafficked, but the actual big 
payoff that organized crime is looking for is primarily in the 
sex industry, because you can get money for a bonded labor 
person, you can get money from some of these other categories, 
but it's not nearly the huge level of profit that organized 
crime is attracted to that they get from prostitution and from 
the sex industry, so I really appreciate you guys taking such a 
strong stance on this topic.
    Mr. Miller. Well, to me it's clear, I mean, the 
relationship between HIV/AIDS and prostitution and trafficking. 
I mean, there wouldn't be sex trafficking without prostitution. 
I mean, that pretty much I think speaks for itself.
    We do have a task force set up under the leadership of 
Under Secretary Dobriansky that is looking at the relationships 
here with HIV/AIDS, and is going to probably have some 
recommendations to our senior operating group that you helped 
set up in terms of setting up grant policies.
    Now, on the relationship between prostitution and 
trafficking, I'm going to take the liberty of making a further 
comment. As you know, the legislation does not specifically 
call for evidence on prostitution to be assembled. It is clear 
to me that when prostitution dramatically or substantially 
increases in a country, that sex trafficking will increase, and 
I think it should be the obligation of a country to prove 
otherwise.
    I am presently talking with our lawyers in the State 
Department as to how we can take that factor into account under 
the act. You may have or your staff may have some thoughts on 
that, or you may want to make the issue clearer in some kind of 
amendment, but your comment spurs needed comment further on 
that.
    Senator Brownback. I appreciate that statement, and your 
work.
    Congressman, thank you for all you are doing, an excellent 
job, and I appreciate it, and we stand ready to help in any way 
that we possibly can.
    Mr. Miller. Thank you for your support.
    Senator Brownback. The next panel will be Dr. Donna M. 
Hughes. She's a professor in the Women's Studies Program, 
University of Rhode Island, and Mr. Gary Haugen, the president 
and CEO of International Justice Mission. I appreciate both of 
your willingness to be here today.
    Dr. Hughes. Thank you, sir.
    Senator Brownback. We will take both of your written 
statements into the record, and if you'd like to summarize, 
that's your choice, but Dr. Hughes, thank you for being here. I 
have read a couple of your articles. I am very impressed by 
those, and look forward to your testimony.

STATEMENT OF DR. DONNA M. HUGHES, PROFESSOR AND CARLSON ENDOWED 
CHAIR IN WOMEN'S STUDIES, UNIVERSITY OF RHODE ISLAND, KINGSTON, 
                               RI

    Dr. Hughes. Well, thank you, Chairman Brownback, and thank 
you for this opportunity to testify at this hearing to review 
U.S. policy on trafficking of women and children, particularly 
in East Asia.
    In the last 3 years, the United States has made historic 
progress in creating new tools to combat trafficking in women 
and children. As you well know, in 2000, Congress passed the 
Trafficking Victims Protection Act, which created new laws with 
which to fight the traffickers and provide new services for 
victims. It authorized the creation of the Office to Monitor 
and Combat Trafficking in Persons. That office is now fully 
functional and under the capable leadership of former 
Congressman John Miller who, of course, we just heard from.
    In the Office of Global Affairs, Under Secretary of State 
Paula Dobriansky has been a leader for a robust interpretation 
of U.S. anti-trafficking policy. In the Trafficking in Persons 
Office and now the Office of Global Affairs, Senior Advisor 
Laura Lederer is sharing her invaluable expertise in 
trafficking.
    In December, the Department of Justice's Office of Juvenile 
Justice and Delinquency Prevention held the first National 
Conference on Child Prostitution. A number of speakers 
addressed trafficking of girls and boys to the United States 
for prostitution.
    And, just as has been discussed, in February, President 
Bush signed a national security Presidential directive on 
trafficking in persons.
    Activists who have been working against the sexual abuse 
and exploitation of women and children for years are pleased 
that it is now U.S. policy that prostitution and related 
activities are considered inherently harmful and dehumanizing, 
and are recognized as contributing to the phenomenon of sex 
trafficking in persons and sex tourism. This policy directive 
is especially crucial in fighting trafficking in women and 
children, because over the past decade there have been attempts 
to delink trafficking from prostitution, and even to legitimize 
prostitution as a form of work for women.
    The U.S. Agency for International Development was quick to 
respond to the Presidential directive by announcing a new anti-
trafficking strategy, which states that organizations 
advocating prostitution as an employment choice, or which 
advocate and support the legalization of prostitution, are not 
appropriate partners for USAID anti-trafficking grants or 
contracts. Kent Hill and his staff and USAID's Bureau for 
Europe and Eurasia have been open to finding ways to combat 
trafficking in the prostitution of women and children.
    So this has all been wonderful progress and I can say as an 
activist and researcher who has worked on trafficking and 
prostitution for about 13 years that this is wonderful 
progress, and there are activists around the world that are 
applauding the United States for taking these steps. The 
challenge now is to implement these landmark policies in order 
to free women and children from enslavement.
    I would like to address trafficking and AIDS. Women and 
children who are trafficked are at high risk for infection for 
HIV, which is a death sentence for victims. Brothels and other 
sites for women and children who are used in prostitution are 
markets for the distribution of the AIDS virus. Awareness of 
this has led to many aid agencies targeting brothels for 
campaigns to increase the use of condoms.
    This approach requires aid workers to interact and 
negotiate with pimps and traffickers, some of the worst 
criminals and human rights violators in the world, in order to 
gain access to the women and children and as Congressman Miller 
referred to, these are the organized crime groups, so what we 
have are aid workers actually interacting with these members of 
organized crime groups.
    In some places, such as Thailand, aid programs claim that 
100 percent condom use policies has resulted in lowering the 
incidence of HIV, but it has come at the cost of overlooking 
and even excusing the sex slave trade in women and children. 
This approach results in sacrificing the safety and freedom of 
women and children for the good of public health.
    Of course we need programs to prevent the spread of HIV, 
but we must place the freedom and safety of women and children 
over the distribution of condoms. It is unacceptable to provide 
medical services and condoms to enslaved people and ignore the 
slavery. What we should be doing is requiring aid workers to 
report the abuse, exploitation, and enslavement of women and 
children to the appropriate authorities.
    Admittedly, police and officials are sometimes complicit in 
trafficking and even profit from the sexual slavery. 
Nonetheless, aid workers should be obligated to report, not 
ignore, slavery. They should also be obligated to catalyze a 
rescue, either through notification of the appropriate 
authorities or a nongovernmental organization, or a faith-based 
group that specializes in rescuing women and children enslaved 
in prostitution.
    We can better reduce the spread of HIV by rescuing traffic 
victims and ending the sexual slave trade that creates a demand 
for these victims. In every case, U.S. policies should 
encourage the arrest and prosecution of traffickers and pimps, 
and the permanent closure of the brothels.
    There are billions of dollars being spent on HIV/AIDS 
prevention and treatment, and a significant portion is directed 
for prevention in high risk groups such as women and children 
in prostitution. There should be appropriate restrictions or 
requirements on how aid organizations and/or personnel respond 
when they suspect that anyone they come in contact with is 
abused, exploited, or enslaved. In the House, Representative 
Chris Smith has been successful in adding an amendment to the 
global HIV/AIDS bill that will prevent funds from this act 
being used to provide assistance to any group that does not 
have an explicit policy opposing prostitution and sex 
trafficking.
    As is being done in the Presidential directive, we need to 
relink trafficking to prostitution. For decades, international 
bodies and instruments recognized the connection between 
prostitution and trafficking to meet the demand for women and 
children created by prostitution. Over the past decade, those 
who want to normalize and legalize prostitution have acted to 
delink prostitution and trafficking, as if one did not depend 
on the other, and the Presidential directive on trafficking 
provides the political will to relink them.
    The Trafficking Victims Protection Act criminalizes severe 
forms of trafficking, and the Trafficking in Persons Report 
issued annually by the State Department evaluates and ranks 
countries on their effort to combat severe forms of 
trafficking.
    Congress needs to create a way to analyze the harm of 
prostitution and the role of tolerance and legalization of 
prostitution, the role that plays in the trafficking of women 
and children. Worldwide, as I said, there's an ongoing effort 
to normalized prostitution. United Nations organizations that 
receive significant financial support from the United States 
publicly advocate for this shift in the status of prostitution.
    For example, in 1998, the International Labor Organization 
released a report called, ``The Sex Sector, the Economic and 
Social Bases of Prostitution in Southeast Asia,'' based on 
research and analysis of prostitution industries in Malaysia, 
Indonesia, Thailand, and the Philippines. The ILO called for 
prostitution and sex industries to be officially recognized as 
a legitimate economic sector because they are already, 
``integrated into the economic, social, and political life of 
countries and contribute in no small measure to employment, 
national income, and economic growth.''
    In this report, the ILO touted prostitution and sex tourism 
as a source of foreign income, and ``the sex sector is a 
significant source of foreign exchange earning, with links 
between the growth of prostitution as a highly structured 
transnational business and the expansion of the tourism 
industry in these countries, as well as labor exports from 
these countries.''
    Also, the World Health Organization has a long history of 
hiring some of the leading advocates for the legalization of 
prostitution to advise them on policy. In 2001, the World 
Health Organization recommended the decriminalization of the 
prostitution, claiming that the normalization of prostitution 
would assist in the fight against the spread of HIV. The U.S. 
Government contributes over 20 percent of the budget of these 
two United Nations organizations. The United States should ask 
these international agencies to clarify the current positions 
and policies on trafficking and prostitution.
    And one other thing I also want to mention is the U.S. 
military and the trafficking of women, because it also plays a 
role. In South Korea, there are documented cases of trafficked 
women from the Philippines, the Russian Federation, Bolivia, 
Peru, Mongolia, China, Bangladesh, Kyrgyzstan, Uzbekistan that 
have all been trafficked into bars and clubs around U.S. bases.
    Last year, a TV reporter filmed U.S. military police 
patrolling bars and brothels that held trafficked women, and an 
investigative reporter for Navy Times documented that military 
police have friendly relations with pimps and bar owners where 
there are trafficked women. Once again, that means that we're 
establishing friendly relations with organized crime often.
    Although engaging in prostitution is a violation of the 
U.S. Military Code of Conduct, it's common knowledge that many 
men ignore that rule. The U.S. military has a shameful history 
in Southeast Asia of fueling the growth of sex industries 
around military bases or at sites for R&R. When the United 
States leaves the area, such as they did in the Philippines, 
the pimps and traffickers do not shut down their criminal 
activity, but turn to sex tourism for their revenue.
    Not only does the demand for prostitution result in the 
trafficking of women for use in those bars, the negative local 
reaction to the abuse and exploitation of women by U.S. 
military personnel provides fodder for anti-American sentiment 
and interests. The United States needs to find ways to ensure 
that our military personnel are not creating a demand for 
prostitution and trafficking. This needs to be addressed around 
existing bases, and strategies are needed to prevent the 
recurrence around future bases.
    One last thing I want to say has to do with what is called 
domestic or internal trafficking. The trafficking of women and 
girls for prostitution occurs within the United States as well 
as across borders, and it's sometimes called domestic 
trafficking, other times internal trafficking, but the same 
phenomenon that occurs in transnational trafficking occurs 
inside the borders of countries, including the United States.
    The Trafficking Victims Protection Act ensures that 
trafficked women and children are treated as victims, not as 
criminals. It provides services they need to recover from their 
ordeal. The same recognition and services are needed for women 
and children whose experiences meet these criteria, the 
criteria of a trafficking victim, except they are U.S. 
citizens. We will not be successful in eradicating the 
trafficking of women and children until we attend to the 
victims within our own borders.
    Thank you.
    [The prepared statement of Dr. Hughes follows:]

  Prepared Statement of Donna M. Hughes, Ph.D., Professor and Carlson 
      Endowed Chair in Women's Studies, University of Rhode Island

    Thank you for this opportunity to testify at this hearing to review 
U.S. policy on trafficking of women and children, particularly in East 
Asia.
    In the last three years, the U.S. has made historic progress in 
creating new tools to combat trafficking in women and children. In 
2000, Congress passed the Trafficking Victims Protection Act, which 
created new laws with which to fight the traffickers and provided new 
services for victims. It authorized the creation of The Office to 
Monitor and Combat Trafficking in Persons. That office is now fully 
functional and under the capable leadership of former Congressman John 
Miller. In the Office of Global Affairs, Undersecretary of State Paula 
Dobriansky has been a leader for a robust implementation of U.S. anti-
trafficking policy. In the Trafficking in Persons Office and now the 
Office of Global Affairs, Senior Adviser Laura Lederer is sharing her 
invaluable expertise on trafficking.
    In December, the Department of Justice's Office of Juvenile Justice 
and Delinquency Prevention held the first national conference on child 
prostitution. A number of speakers addressed trafficking of girls and 
boys to the U.S. for prostitution.
    In February, President Bush signed a National Security Presidential 
Directive on trafficking in persons. Activists who have been working 
against the sexual abuse and exploitation of women and children for 
years are pleased that it is now U.S. policy that prostitution and 
related activities are considered ``inherently harmful and 
dehumanizing'' and are recognized as ``contribut[ing] to the phenomenon 
of trafficking in persons \1\ and sex tourism. This policy directive is 
especially crucial in fighting trafficking in women and children 
because over the past decade there have been attempts to de-link 
trafficking from prostitution, and even to legitimize prostitution as a 
form of work for women.
---------------------------------------------------------------------------
    \1\ ``Trafficking in Persons National Security Presidential 
Directive,'' February 2003, http://www.whitehouse.gov/news/releases/
2003/02 20030225.html
---------------------------------------------------------------------------
    The U.S. Agency for International Development was quick to respond 
by announcing a new ``Anti-Trafficking Strategy,'' which states that 
``organizations advocating prostitution as a employment choice or which 
advocate or support the legalization of prostitution are not 
appropriate partners for USAID anti-trafficking grants or contracts.'' 
\2\ Kent Hill and his staff in USAID's Bureau for Europe and Eurasia 
have been open to finding ways to combat the trafficking and 
prostitution of women and children.
---------------------------------------------------------------------------
    \2\ U.S. Agency for International Development's Response: 
Trafficking in Persons, February 2003, http://www.usaid.gov/
aboutitrafficking/anti-trafficking.pdf
---------------------------------------------------------------------------
    Also, Deputy Secretary of Health and Human Services Claude Allen 
and his staff have shown leadership in promoting the new policy on 
trafficking and prostitution.
    The challenge now is to implement these landmark policies in order 
to free women and children from enslavement.
                          trafficking and aids
    Women and children who are trafficked are at high risk for 
infection with HIV, which is a death sentence for the victims. Brothels 
and other sites where women and children are used in prostitution are 
markets for the distribution of the AIDS virus. Awareness of this has 
led many aid agencies to target brothels for campaigns to increase the 
use of condoms. This approach requires aid workers to interact and 
negotiate with pimps and traffickers--some of the worst criminals and 
human rights violators in the world--in order to gain access to the 
women and children.
    In some places, such as Thailand, aid programs claim that a 100 
percent condom use policy has resulted in lowering the incidence of 
AIDS, but it has come at a cost of overlooking and even excusing the 
sex slave trade in women and children. This approach results in 
sacrificing the safety and freedom of women and children for the good 
of public health. Of course, we need programs to prevent the spread of 
HIV, but we must place the freedom and safety of women and children 
over the distribution of condoms. It is unacceptable to provide medical 
services and condoms to enslaved people and ignore the slavery.
    We should be requiring aid workers to report the abuse, 
exploitation, and enslavement of women and children to the appropriate 
authorities. Admittedly, police and officials are sometimes complicit 
in trafficking and even profit from sexual slavery. Nonetheless, aid 
workers should be obligated to report, not ignore slavery. They should 
also be obligated to catalyze a rescue either through notification of 
the appropriate authorities or a nongovernmental organization or faith 
based group that specializes in rescuing women and children enslaved in 
prostitution.
    We can better reduce the spread of HIV by rescuing trafficking 
victims and ending the sexual slave trade that creates a demand for 
more victims. In every case, U.S. policies should encourage the arrest 
and prosecution of traffickers and pimps and the permanent closure of 
the brothels.
    There are billions of dollars being spent on HIV/AIDS prevention 
and treatment, and a significant portion of it is directed for 
prevention in ``high risk'' groups, such as women and children in 
prostitution. There should be appropriate restrictions or requirements 
for how aid organizations and their personnel respond when they suspect 
that anyone they come in contact with is abused, exploited, or 
enslaved.
    In the House, Representative Chris Smith has been successful in 
adding an amendment to the Global HIV/AIDS bill (H.S. 1298) that will 
prevent funds from this Act being used to provide assistance to any 
group that does not have a policy explicitly opposing prostitution and 
sex trafficking.
                  linking trafficking to prostitution
    We need to relink trafficking to prostitution. For decades, 
international bodies and instruments recognized the connection between 
prostitution and trafficking to meet the demand for women and children 
created by prostitution. Over the past decade, those who want to 
normalize and legalize prostitution have acted to delink prostitution 
and trafficking, as if one did not depend on the other. The 
Presidential Directive on Trafficking provides the political will to 
relink them.
    The Trafficking Victims Protection Act criminalizes severe forms of 
trafficking, and the Trafficking in Persons Report issued annually by 
the State Department evaluates and ranks countries on their efforts to 
combat severe forms of trafficking. Congress needs to create a way to 
analyze the harm of prostitution and the role tolerance and 
legalization of prostitution plays in the trafficking of women and 
children.
    Worldwide there is an ongoing effort to normalize prostitution. 
United Nations organizations that receive significant financial support 
from the United States publicly advocate for this shift in the status 
of prostitution. For example, in 1998 the International Labor 
Organization (ILO) released a report called The Sex Sector--The 
Economic and Social Bases of Prostitution in Southeast Asia. Based on 
research and analysis of prostitution industries in Malaysia, 
Indonesia, Thailand and the Philippines, the ILO called for 
prostitution and sex industries to be officially recognized as a 
legitimate economic sector because they are already ``integrated into 
the economic, social and political life'' of countries and ``contribute 
in no small measure to employment, national income and economic 
growth.'' \3\ In this report, the ILO touted prostitution and sex 
tourism as a source of foreign income:
---------------------------------------------------------------------------
    \3\ Lin Lean Lim, The Sex Sector--The Economic and Social Bases of 
Prostitution in Southeast Asia, International Labor Organization, 1998, 
p. 1.

        ``[The sex sector] is a significant source of foreign exchange 
        earnings, with links between the growth of prostitution as a 
        highly structured transnational business and the expansion of 
        the tourist industry in these countries, as well as labour 
        exports from these countries.'' \4\
---------------------------------------------------------------------------
    \4\ Lim, The SexSector, p. 10.

    Also, the World Health Organization has a long history of hiring 
some of the leading advocates for the legalization of prostitution to 
advise them on policy. In 2001, the World Health Organization 
recommended the decriminalization of prostitution, claiming that the 
normalization of prostitution would assist in the fight against the 
spread of HIV.\5\
---------------------------------------------------------------------------
    \5\ ``WHO urges decriminalization of prostitution,'' Deutsche 
Presse-Agentur, August 13, 2001.
---------------------------------------------------------------------------
    The U.S. government contributes over 20 percent of budget of these 
two United Nations organizations.\6\ The U.S. should ask these 
international agencies to clarify their current positions and policies 
on trafficking and prostitution.
---------------------------------------------------------------------------
    \6\ Congressional Research Service, ``U.S. Contribution to U.N. 
System Organizations as a Percentage of Total Contributions,'' March 
24, 2003.
---------------------------------------------------------------------------
               u.s. military and the trafficking of women
    The U.S. military also plays a role in the trafficking of women.
    In South Korea, there are documented cases of women from the 
Philippines, the Russian Federation, Bolivia, Peru, Mongolia, China, 
Bangladesh, Kyrgyzstan, and Uzbekistan being trafficked into bars and 
clubs around the U.S. bases.\7\ \8\ Last year, a TV reporter filmed 
U.S. military police patrolling bars and brothels that held trafficked 
women.\9\ And an investigative reporter for Navy Times documented that 
military police have friendly relations with pimps and bar owners where 
there are trafficked women.\10\
---------------------------------------------------------------------------
    \7\ B. Jhoty, ``Trapped in modern slavery: Sex trafficking turns 
Russian women into Korean pawns,'' The Korea Herald, November 2, 2001.
    \8\ N. Lhagvasuren, ``Waking up to a new reality,'' Transitions 
Online, August 21, 2001.
    \9\ Tom Merriman, Fox On The Record, June 11, 2002.
    \10\ W. H. McMichael, ``Sex slaves,'' Navy Times, August 12, 2002.
---------------------------------------------------------------------------
    Although engaging in prostitution is a violation of the U.S. 
Military Code of Conduct, it is common knowledge that many men ignore 
that rule. The U.S. military has a shameful history in Southeast Asia 
of fueling the growth of sex industries around military bases or at 
sites of R&R (rest and relaxation). When the U.S. leaves the area, such 
as the Philippines, the pimps and traffickers do not shut down their 
criminal activity, but turn to sex tourism for their revenue.
    Not only does the demand for prostitution result in the trafficking 
of women for use in these bars and clubs, the negative local reaction 
to the abuse and exploitation of women by U.S. military personnel 
provides fodder for anti-American sentiment and interests.
    The U.S. needs to find ways to ensure that our military personnel 
are not creating a demand for prostitution and trafficking. This needs 
to be addressed around existing bases and strategies are needed to 
prevent the reoccurrence around future bases.
           domestic/internal trafficking in the united states
    I'd like to raise one last thing: The trafficking of women and 
girls for prostitution within the United States. It is referred to as 
either domestic trafficking or internal trafficking: You are now well 
aware of the transnational trafficking of women from country to 
country. But the same phenomenon occurs within the borders of 
countries, including the United States. The Trafficking Victims 
Protection Acts ensures that trafficked women and children are treated 
as victims, not as criminals, and provides services they need to 
recover from their ordeal. The same recognition and services are needed 
for women and children whose experiences meet all the criteria of a 
trafficking victim, except that they are U.S. citizens. We will not 
have succeeded in eradicating the trafficking of women and children 
until we attend to the victims within our own borders.

    Senator Brownback. Thank you very much. That was a very 
strong and clear statement. You have written a number of times 
about this, and we look forward to engaging in some questions 
about it, but thank you very much for the excellent testimony.
    Mr. Haugen, welcome back to the committee. I appreciate you 
being here and look forward to your testimony.

 STATEMENT OF GARY A. HAUGEN, PRESIDENT AND CEO, INTERNATIONAL 
                JUSTICE MISSION, WASHINGTON, DC

    Mr. Haugen. Thank you, Senator. Thank you very much for the 
invitation to appear before you this afternoon and for the 
privilege of participating on behalf of the International 
Justice Mission [IJM].
    I think at a time when our Nation is vigorously engaged in 
a struggle against tyranny and terrorism around the world, I 
think it expresses the generosity and the conscientiousness of 
the Senate for us in the midst of that to be nevertheless 
carrying on with our important obligations to monitor our 
commitment to the work of combating the scourge of human 
trafficking around the world, so I express my thanks for 
holding the hearing and also express my thanks for your 
leadership, which really got this whole train moving.
    The fact is, we're here today and many changes are taking 
place around the world that affect the lives of victims because 
of the choices you made about stewarding your powers as an 
American Senator, and so I honor that and want to express that.
    Quite simply, sex trafficking is the ugliest and yet most 
preventable man-made disaster on our globe today. It's ugly 
because it's massive and brutal. I've just returned from an 
investigation of a sex trafficking ring in Southeast Asia, 
where I was taken into a brothel and I was promptly presented 
with about a dozen children between the ages of 6 and 12 who 
the pimps were offering to me for a reasonable price to be 
raped and molested. This is the factual matter that we speak of 
theoretically today.
    At the same time, this ugly and appalling epidemic is also 
one of the most preventable catastrophes on the globe. The 
simple fact of the matter is this: Sex trafficking can only 
flourish where it is tolerated by local law enforcement. If the 
customers can find the victims whenever they want, the police 
can find the victims whenever they want. This is the 
indispensable insight about the fundamental vulnerability of 
sex trafficking that we have to grasp.
    Sex trafficking requires the commission of multiple 
felonies in a way that is held out openly to the customer 
public. Therefore, it can be shut down wherever there is the 
political will and operational resources to do so. Sex 
trafficking and commercial sexual exploitation could be 
drastically reduced wherever a country has the political will 
and the operational capacity to send the perpetrators to jail 
and to treat the victims with compassion and dignity. This is a 
fight that can actually be won.
    Now, as you know, in sponsoring the Trafficking Victims 
Protection Act, it was understood that it was essential to 
strengthen both the political will and the operational capacity 
of countries to fight sex trafficking. Sex trafficking preys 
upon the most marginalized groups in society, women, children, 
refugees, undocumented persons, ethnic minorities, and the 
poor.
    Fundamentally, political leaders do not feel that their 
hold on power will be threatened if they don't protect this 
group of impoverished and low status women and girls, and 
accordingly the TVPA endeavored to place the voice and values 
of the American people on the side of these vulnerable women 
and children by making it clear that their abuse would not be 
tolerated, and specifically the TVPA established the Office to 
Combat and Monitor Trafficking to tell the truth about whether 
a country was vigorously defending these women and children, 
with the understanding that those countries unwilling to 
provide these basic protections would find an adverse impact in 
their relationship with the United States.
    Since then, what have we learned about the efforts to 
implement that policy in ways that actually make a difference, 
and what have we learned about those actions that actually 
undermine the impact of the policy?
    First, what makes the policy actually work? I would like to 
suggest three things. First, vigorous and transparent reporting 
on a government's record on sex trafficking conviction and 
police disciplinary action. The purpose of the Trafficking in 
Persons Report is simple. It is intended to provide 
accountability. Therefore, the report has its intended effect 
when it is actually written in a way that makes accountability 
easy, rather than making accountability hard.
    Effective accountability is achieved when the report 
provides specific, objective, transparent data on a 
government's actions that actually matter, and from the 
perspective of the sex traffickers there are only two 
government actions that really matter. First, is the government 
seriously threatening to actually throw me in jail for what I'm 
doing, and second, is the government seriously threatening to 
remove the police protection that I have paid for?
    Again, it must be emphasized that the relevant data point 
is convictions, not even raids, not even arrests, and not even 
prosecutions. Traffickers, brothel-keepers, and pimps are quite 
willing to endure raids, arrests, and even prosecutions if, in 
the end, they don't go to jail.
    Even the most corrupt police carry out regular raids, 
arrests, and initiate prosecutions. In fact, they must do it in 
order to maintain the credible threat by which they extort 
bribes from the brothels. That is why the countries with the 
worst sex trafficking records can report raids, arrests, and 
prosecutions, but such countries have very little to report in 
the way of actual, successful convictions resulting in jail 
time. None of these other actions turn into credible law 
enforcement threat that actually deters sex trafficking unless 
they result in convictions with imprisonment.
    This is why the IJM is so very pleased that Congressman 
Miller has adopted as the policy of the office now that 
governments wishing to be certified as making serious efforts 
to meet minimum standards in combating sex trafficking must 
bear the burden themselves of reporting, on providing objective 
data on trafficking-related convictions and police disciplinary 
actions. This is a tremendous step forward.
    The second ingredient for making the TVPA policy actually 
work has been a credible and clearly communicated threat of 
consequences for governments that are not taking serious steps 
to actually send perpetrators to jail and to get police out of 
the trafficking business. We have found that trafficking issues 
become an urgent priority for the worst offending countries 
only after they've been placed on tier 3 or faced a credible 
risk of being placed on tier 3.
    While some countries may diplomatically protest being 
placed on tier 2, foreign governments clearly understand that 
actual consequences for their poor trafficking record only 
kicks in if they're on tier 3. Accordingly, a TIP report 
process that proceeds with the presumption that a tier 3 status 
for certain countries is diplomatically intolerable or 
politically untenable severely undermines the effectiveness of 
the TIP report process, and I'm very grateful for Congressman 
Miller's commitment that the report won't be like that, because 
when there's an unspoken but de facto presumption against a 
tier 3 ranking, it effectively freezes the status quo of the 
worst offending nations and weakens the TVPA's capacity to 
impact political will, and it profoundly dishonors the 
suffering of women and children who are brutalized by sex 
trafficking.
    Finally, U.S. policy--and this is the third point--is 
effectively advanced through focused and practical capacity-
building for programs that send perpetrators to jail and care 
compassionately for the victims. In addition to political will, 
foreign governments also need the practical wherewithal to take 
decisive law enforcement measures to combat trafficking and to 
care for victims. Accordingly, U.S. policy is advanced by 
funding programs that address the intensely practical 
challenges of strengthening law enforcement capacities to 
investigate arrests and successfully prosecute trafficking 
offenders.
    Programs are needed to support special anti-trafficking 
police units and prosecutorial teams with training, operational 
support, and hands-on assistance in achieving the priority 
outcome of sending the offenders to jail and removing the dirty 
cops.
    Police complicity in sex trafficking. Police complicity in 
sex trafficking has been so pervasive and so ugly that many 
have been tempted to imagine that there is a solution that 
simply ignores the police, but in combating any crime, the 
answer to bad law enforcement is never no law enforcement. The 
answer must always be a committed struggle to better law 
enforcement. Accordingly, IJM is very pleased that recent 
legislation has cleared the way for funding by USAID and other 
agencies of targeted programs that strengthen the capacities of 
police to actually combat trafficking.
    Equally critical are programs that fund comprehensive and 
compassionate after-care services for the victims of sex 
trafficking. Not only are such programs necessary to treat 
victims with the dignity and care that they deserve, but they 
are also absolutely indispensable for establishing the victim 
cooperation that will end up being essential for any kind of 
meaningful countertrafficking endeavor, and we have seen in 
different parts of the world where we actually are limited in 
our ability to conduct rescue operations because the after-care 
facilities are not available. That should not be the case.
    Additional opportunities to fund programs to fight sex 
trafficking and commercial sexual exploitation has emerged as a 
result of President Bush's bold initiative to combat the global 
AIDS epidemic. The important point here is the following: While 
traditional AIDS prevention programs with educational awareness 
go a long way in helping women and girls to make good choices 
that avoid high risk sexual activities, these programs do not 
assist and do not protect the millions of women and children 
who don't get to make choices about their sexual encounters, 
particularly the millions of victims of commercial sexual 
exploitation who are forcibly infected with the HIV virus.
    Accordingly, Federal funding of programs aimed at combating 
the international AIDS epidemic must include support of 
programs to combat sex trafficking and other forms of sexual 
violence against women and girls, or else our effort to fight 
AIDS will simply fail to address one of the fundamental and 
certainly most brutal causes of the epidemic, and Senator, as 
my colleagues in India have been by the bedside of a 
trafficking victim who is perishing by AIDS, it is not a 
theoretical matter. You could fill this hearing room with the 
children today who are passing away painfully because of the 
AIDS virus that was forcibly infected upon them in brothels.
    In closing, I would like to say that in recent weeks IJM 
has directly experienced the very positive impact of U.S. 
policy in combating sex trafficking in Cambodia, and I just 
want to share this with you so you can see the difference that 
this makes.
    More than 2 years ago IJM began conducting extensive 
investigations into one of the most appalling cesspools of 
child prostitution in the world, the village called Svay Pak 
outside Phnom Penh, where scores of girls between the ages of 5 
and 12 were being sold in an open market for pedophiles and sex 
tourists. Over a 2-year period, we turned our investigative 
findings over to the Cambodian authorities, but failed to 
obtain a satisfying response.
    Then, last year, the TIP report placed Cambodia on tier 3, 
and the new U.S. Ambassador to Cambodia, Ambassador Charles 
Ray, initiated a very proactive engagement with the senior 
Cambodian authorities on U.S. policy toward trafficking. This 
direct advocacy with the Cambodian authorities and the 
excellent work of Ambassador Ray's staff helped make it 
possible last month for IJM and the Cambodian authorities to 
bring rescue to 37 minor victims of commercial sexual 
exploitation out of Svay Pak, including about a dozen children 
between the ages of 5 and 10.
    In addition, approximately 12 suspects have been arrested 
and properly charged, with cooperative police investigations 
continuing with IJM to locate and prosecute additional 
suspects, and just this week we have been monitoring the chat 
rooms of pedophiles and sex tourists, and they're reporting 
that the party in Cambodia is over.
    Ambassador Ray and representatives of the U.S. Department 
of State were very successful in making clear to the Cambodian 
authorities the priority that American foreign policy places on 
addressing sex trafficking, and as a result, by the time IJM 
was able to brief the Cambodian authorities on our latest Svay 
Pak investigation, they were prepared to provide extraordinary 
cooperation in working with the IJM to seek rescue for the 
victims and to pursue accountability for the perpetrators.
    We believe that the advocacy of the U.S. Embassy with the 
Cambodian authorities was an indispensable and decisive factor 
in generating effective law enforcement cooperation. Of course, 
it will be very important to continue to monitor the actions of 
the Cambodian authorities as they followup on specific cases 
and as they persevere in vigorous efforts to investigate and 
successfully prosecute sex trafficking crimes on an ongoing 
basis.
    Cambodia has had a very poor record of tolerating sex 
trafficking, especially among very young children, and such a 
record cannot be turned around overnight, but we believe that a 
very promising beginning has been made in supporting the 
Cambodian Government in a new direction that seriously combats 
sex trafficking. We believe these encouraging events help to 
serve as a model for what can be achieved when there is the 
following things: transparent reporting through the TIP report, 
meaningful application of the tier rating system, direct 
advocacy by U.S. authorities at the highest levels of 
government, and tangible practical assistance to foreign 
governments in bringing rescue to trafficking victims and 
justice to perpetrators.
    IJM looks forward to continuing its constructive work with 
the U.S. State Department, foreign governments, and partner 
NGOs, and helping make sure that the promises of U.S. policy in 
fighting sex trafficking deliver tangible results to vulnerable 
women and children and hasten the day when these brutal 
enterprises of rape for profit are simply put out of business.
    Senator, thank you very much.
    [The prepared statement of Mr. Haugen follows:]

Prepared Statement of Gary A. Haugen, President and CEO, International 
                            Justice Mission

                              introduction
    Mr. Chairman
    My name is Gary Haugen and I serve as the President of 
International Justice Mission (IJM). On behalf of IJM, I would like to 
express my thanks to the Committee for the privilege of participating 
in this important hearing to Review U.S. Policy on the Trafficking of 
Women and Children in East Asia and Beyond.
    International Justice Mission is an international human rights 
agency that provides a hands-on, operational field response to cases of 
human rights abuse referred to us from faith-based ministries serving 
around the world. Frequently these workers observe severe human rights 
abuses in the communities where they serve. These workers refer these 
cases to us, and then we conduct a professional investigation to 
document the abuses and mobilize intervention on behalf of the victims.
    Many of the cases referred to us involve children taken into sex 
trafficking and commercial sexual exploitation. Accordingly, we deploy 
criminal investigators to infiltrate the brothels, use surveillance 
technology to document where the children are being held, and then 
identify secure police contacts who will conduct raids with us to get 
the children out. We then coordinate the referral of these children to 
appropriate aftercare.
    At a time when our nation is vigorously engaged in a struggle 
against tyranny and terrorism in the world, this Committee manifests 
the generous and conscientious spirit of the U.S. Senate by making room 
in its agenda for vigilant oversight of our national commitment to 
combat the global scourge of human trafficking.
    I would like to focus my remarks today on the nightmare of human 
trafficking for purposes of sexual exploitation. Quite simply, sex 
trafficking is the ugliest and most preventable man-made disaster in 
our world today. It is ugly because it is massive and brutal. UNICEF 
estimates that about a million children are victimized by sex 
trafficking each year around the world. IJM investigators have spent 
literally thousands of hours infiltrating the sex trafficking industry, 
and the reality we find is a horror one only encounters in nightmares. 
I've just returned from an investigation of a sex trafficking ring in a 
South East Asian country where I entered a brothel and was promptly 
offered a dozen children between the ages of 6 and 12 who, for a modest 
price, were made available by the pimps to be raped and molested.
    At the same time, this ugly and appalling epidemic is also one of 
the most preventable catastrophes on our globe today. The simple fact 
of the matter is this: sex trafficking only flourishes where it is 
tolerated by local law enforcement. The business of sex trafficking and 
forced prostitution requires that the perpetrators commit multiple 
felonies of abduction, rape, assault, and false imprisonment--and then 
it requires that the perpetrators hold out the victims of these crime 
openly to the public so that the customers can find them. It does no 
good at all for the brothel keepers and pimps to hide their victims. In 
fact, to make money on their investment, the pimps and brothel keepers 
must make their victims openly available to the customer public--and 
not just once, but continuously, and over a long period of time. 
Obviously, therefore, if the customers can find the victims of sex 
trafficking whenever they want, so can the police. How, therefore, do 
you possibly get away with running a sex trafficking enterprise? You do 
so only if permitted by local law enforcement. Generally, this is 
facilitated by bringing the police into the business and sharing the 
profits with them in exchange for protection against the enforcement of 
the laws that are openly and continuously violated every single day the 
business is in operation. Certainly sex trafficking is exacerbated by 
poverty and economic desperation; but we do not find epidemic levels of 
sex trafficking wherever we find poverty in the world. Rather, sex 
trafficking flourishes on a large scale only in those countries where 
it is tolerated by national law enforcement.
    This is the indispensable insight about the fundamental 
vulnerability of sex trafficking that must be grasped. Sex trafficking 
requires the commission of multiple felonies in a way that is held out 
openly to the public. Therefore it can be shut down wherever there is 
the political will and operational resources to do so.
    Sex trafficking and commercial sexual exploitation can be 
drastically reduced wherever a country has the political will and the 
operational capacity to send the perpetrators to jail and to treat the 
victims with compassion and dignity. This is a fight that can actually 
be won. In fact, this was the animating conviction behind the 
Trafficking Victims Protection Act of 2000 (TVPA). The TVPA sought to 
influence the political will of countries with serious trafficking 
problems by making clear that there would be consequences for a 
country's relationship with the Unites States, including the 
possibility of sanctions, if that country did not make significant 
efforts to meet minimum standards in combating sex trafficking. 
Secondly, the TVPA also authorized grants to help strengthen a 
country's capacity to address sex trafficking through prevention, 
prosecution, and protection activities.
    The authors of the TVPA understood that it was essential to 
strengthen both the political will and the operational capacity of 
countries to fight sex trafficking. It was well understood that in many 
countries the victims of sex trafficking fundamentally lacked the voice 
and power to make themselves a priority for national law enforcement. 
Sex trafficking operations prey upon the most marginalized groups in 
society--women, children, refugees, undocumented persons, ethnic 
minorities, and the poor. Fundamentally, political leaders do not feel 
threatened in their hold on power if they fail to protect a bunch of 
impoverished and low-status women and girls. Scarce law enforcement 
resources are deployed to protect the things that societies value the 
most, and in countries where the women and children have been relegated 
to the status of a lower life form, they are left utterly vulnerable to 
the brutalities of the commercial sex trade. Accordingly, the TVPA 
endeavored to place the voice and values of the American people on the 
side of these vulnerable women and children by making it clear that 
their abuse would not be tolerated. Specifically, the TVPA established 
the Office to Combat and Monitor Trafficking to provide a voice of 
accountability for the otherwise voiceless victims of trafficking. This 
new office would tell the truth about whether a country was vigorously 
defending women and children against the horrors of trafficking, with 
the understanding that those countries unwilling to provide such basic 
protections would find an adverse impact in their relationship with the 
United States.
    This was the theory behind the policy expressed in the Trafficking 
Victims Protection Act of 2000. All of the great effort in passing the 
TVPA was intended to actually make a real-world difference for the 
women and children being crushed by the forces of sex trafficking. I 
offer this review simply to ask the question whether the policy is 
actually having its intended effect, especially in East Asia. What have 
we learned about the efforts to implement the policy that actually make 
a difference and what have we learned about those actions that 
undermine the impact of the policy? In a number of countries, IJM has 
been working hand-in-hand with foreign governments, NGO's and State 
Department personnel to conduct hands-on operations to rescue victims 
and to bring perpetrators to justice, and we are learning about the 
practical impact of U.S. policy at the street level. Our experience is 
starting to demonstrate that, as we all hoped, the policy can have a 
tremendous impact if implemented vigorously.
                  what makes the policy actually work?
    I would suggest 3 things:

          1. Vigorous and transparent reporting on a government's 
        record on sex trafficking convictions and police disciplinary 
        actions.

          2. A credible, and clearly communicated threat of 
        consequences for governments that are not taking serious steps 
        to actually send perpetrators to jail and to get police out of 
        the trafficking business.

          3. Focused and practical capacity building for sending 
        perpetrators to jail and caring compassionately for victims.

    I would like to take a moment to examine these one at a time. 
First, vigorous and transparent reporting on a government's record on 
sex trafficking convictions and police disciplinary actions.
    The purpose of the Trafficking In Persons Report is simple: it is 
intended to provide accountability. Therefore, the report has its 
intended effect when it is actually written in a way that makes 
accountability easy, rather than making it hard. We should make no 
mistake. There are those who will have an interest in making clear 
accountability harder rather than easier--and (as all of my fellow 
lawyers well know) there certainly are ways to fashion a document that 
either promotes accountability or obscures accountability. Effective 
accountability is achieved when the Report provides specific, 
objective, transparent data on a government's actions that actually 
matter. And from the perspective of the sex traffickers, only two 
government actions matter: a) Is the government seriously threatening 
to actually send me to jail for doing this? b) Is the government 
seriously threatening to remove the police protection that I have paid 
for?
    Consequently, effective accountability regarding the seriousness of 
a government's efforts to combat trafficking will only begin to emerge 
when there is specific objective data on the number of successful 
trafficking-related convictions resulting in jail time, as well as data 
on the number of disciplinary actions that have been taken against 
police who are complicit in protecting sex trafficking operations 
(remembering that such operations simply don't exist on a significant 
scale without such protection).
    Again, it must be emphasized that the relevant data point is 
convictions--not raids, arrests, and prosecutions. Traffickers, brothel 
keepers, and pimps are quite willing to endure raids, arrests, and even 
prosecutions if, at the end of the day, they don't have to actually go 
to prison. In fact, such actions are just considered part of the costs 
of doing business. Moreover, even the most corrupt police carry out 
raids, arrests and initiate prosecutions. In fact, they must do so in 
order to maintain the credible threat by which they extort bribes from 
the perpetrators. That is why countries with the worst sex trafficking 
records can report raids, arrests, and prosecutions; but such countries 
have very little to report in terms of actual convictions. None of 
these other actions turn into a credible law enforcement threat that 
actually deters sex trafficking unless they result in convictions with 
imprisonment. This is the only cost of doing business that the 
perpetrators are unwilling to pay.
    This is why IJM is so pleased that the new Director of the Office 
to Combat and Monitoring Trafficking, the Hon. John Miller, has adopted 
as the policy of his office that governments wishing to be certified as 
making serious efforts to meet minimum standards in combating sex 
trafficking must bear the burden of providing objective data on 
trafficking-related convictions and police disciplinary actions. After 
all, these governments are themselves in the best position to report on 
their own positive actions, and the Office cannot be reasonably 
expected to affirmatively certify that a government is making 
significant efforts if the government provides no verifiable data on 
these two most basic responsibilities. Self-reporting by a government 
regarding its own counter-trafficking initiatives with follow up by the 
State Department provides the best means for transparency and 
accountability.
    The second ingredient for making the TVPA policy actually work has 
been a credible, and clearly communicated threat of consequences for 
governments that are not taking serious steps to actually send 
perpetrators to jail and to get police out of the trafficking business.
    In order to bring effective protection to women and children 
vulnerable to sex trafficking, governments must move counter-
trafficking efforts from being a good idea to being an urgent priority. 
And in reality, the only dynamic that generates such a shift is usually 
the belief that something bad will happen if they fail to do so. This 
is why the threat of possible sanctions was incorporated within the 
legislation for countries placed on Tier 3 of the Trafficking In 
Persons Report (TIP). In this regard, we have found that trafficking 
issues become an urgent priority for the worst offending countries only 
after they have been placed on Tier 3 or faced a credible risk of being 
placed on Tier 3. While some countries may diplomatically protest their 
placement on Tier 2, foreign governments clearly understand that actual 
consequences for their poor trafficking record only kick in if they are 
on Tier 3. Among countries with serious trafficking problems, 
therefore, it is only the credible risk of Tier 3 sanctions that 
actually moves countries to earnestly make the work of combating 
trafficking an urgent law enforcement priority, rather than just a 
public relations nuisance.
    Accordingly, a TIP Report process that proceeds with a presumption 
that Tier 3 status for certain countries is diplomatically intolerable 
or politically untenable severely undermines the effectiveness of the 
TIP Report process. An unspoken but defacto presumption against a Tier 
3 ranking effectively freezes the status quo of the worst offending 
nations and weakens the TVPA's capacity to impact political will. It 
profoundly dishonors the suffering of women and children brutalized by 
sex trafficking and commercial sexual exploitation. Likewise, the 
TVPA's capacity to strengthen the political will of authorities to end 
the toleration of sex trafficking is utterly diluted by the failure to 
articulate clearly to foreign governments the straightforward 
requirements of the TVPA and the real risks of consequences associated 
with a poor trafficking record. Ultimately, it will be up to 
congressional committees such as this to thoroughly and rigorously 
scrutinize the precise factual basis upon which the State Department 
grants passing grades to the some of the most notorious sex trafficking 
countries.
    Finally, U.S. policy is effectively advanced through focused and 
practical capacity-building for programs that send perpetrators to jail 
and care compassionately for victims. In addition to political will, 
foreign governments also need the practical wherewithal to take 
decisive law enforcement measures to combat trafficking and to care for 
the victims. Accordingly, U.S. policy is advanced by funding programs 
that address the intensely practical challenges of strengthening law 
enforcement capacities to investigate, arrest and successfully 
prosecute sex trafficking offenders. Programs are needed to support 
special anti-trafficking police units and prosecutorial teams with 
training, operational support, and hands-on assistance in achieving the 
priority outcome of sending offenders to jail and removing dirty cops.
    Education, awareness, and poverty alleviation programs are 
important preventative measures, but such programs will never be able 
to keep pace with the entrepreneurial energy and creativity of the 
traffickers unless they are combined with practical programs that 
actually help make national law enforcement successful in sending 
perpetrators to jail. Police complicity in sex trafficking has been so 
pervasive and ugly that many have been tempted to imagine solutions 
that simply ignore the police. But in combating any crime, the answer 
to bad law enforcement is never no law enforcement--the answer must 
always be a committed struggle for better law enforcement.
    Accordingly, IJM is very pleased that recent legislation has 
cleared the way for funding by USAID and other agencies of targeted 
programs that strengthen counter-trafficking activities of specialized 
police and prosecution units, as well as legal advocacy to protect 
victims and to bring perpetrators to justice. (See the Consolidated 
Appropriations Resolution, 2003 (P.L. 108-7).
    Equally critical are programs that fund comprehensive and 
compassionate aftercare services for the victims of sex trafficking. 
Not only are such programs necessary to treat victims with the dignity 
and care that they deserve, but they are also absolutely indispensable 
for establishing the victim cooperation that is essential for any 
meaningful counter-trafficking endeavor. At present, the existing 
capacities for providing comprehensive aftercare for the victims of sex 
trafficking are tragically inadequate. In fact, IJM has found itself 
limited in the rescue operations it could conduct for victims because 
of the lack of aftercare capacity. This is a need that can and must be 
addressed by targeted and generous appropriations.
    Additional opportunities to fund programs to fight sex trafficking 
and commercial sexual exploitation have emerged as a result of 
President Bush's bold initiative to combat the AIDS epidemic. Research 
has demonstrated that sex trafficking is one of the great engines 
driving the spread of the AIDS global pandemic, and while traditional 
AIDS prevention programs of education and awareness go a long way in 
helping women and girls make good choices in avoiding high-risk sexual 
activities, these programs do nothing to protect the millions of women 
and girls who do not get to make choices about their sexual 
encounters--particularly the millions of victims of commercial sexual 
exploitation who are forcibly infected with the HIV virus. Accordingly, 
federal funding of programs aimed at combating the international AIDS 
epidemic must include support of programs to combat sex trafficking and 
other forms of sexual violence against women and girls, or else 
America's effort to fight AIDS will simply fail to address one of the 
fundamental and certainly most brutal causes of the epidemic.
    Finally, in recent weeks IJM has directly experienced the positive 
impact of U.S. policy in combating sex trafficking in Cambodia. More 
than two years ago, IJM began conducting extensive investigations into 
one of the most appalling cesspools of child prostitution in the world, 
a village called Svay Pak outside Phnom Penh where scores of girls 
between the ages of 5 and 12 were being sold in an open market for 
pedophiles and sex tourists. Over a two-year period we turned our 
investigative findings over to Cambodian authorities, but failed to 
obtain a satisfying response. Then last year, the TIP Report placed 
Cambodia on Tier 3 and the new U.S. Ambassador to Cambodia, Ambassador 
Charles A. Ray, initiated a very proactive engagement with the senior 
Cambodian authorities on U.S. policy toward trafficking. This direct 
advocacy with Cambodian authorities and the excellent work of 
Ambassador Ray's staff, helped make it possible last month for IJM and 
the Cambodian authorities to bring rescue to 37 minor victims of 
commercial sexual exploitation out of Svay Pak, including about a dozen 
children between the ages of 5 and 10. In addition, approximately 12 
suspects have been arrested and charged, with cooperative police 
investigations continuing with IJM to locate and prosecute additional 
suspects identified in our investigative report.
    Ambassador Ray, and representatives of the U.S. Department of State 
were very successful in making clear to the Cambodian authorities the 
priority that American foreign policy places on addressing sex 
trafficking. Senior Cambodian authorities were well and effectively 
briefed on the dynamics and significance of the tier rating system of 
the Trafficking Victims Protection Act, and on the consequences of 
failing to make significant efforts to meet minimum standards in 
combating trafficking. Consequently, by the time IJM was able to brief 
the Cambodian authorities on our latest Svay Pak investigation, they 
were prepared to provide extraordinary cooperation in working with IJM 
to seek rescue for the victims and to pursue accountability for the 
perpetrators. We believe that the advocacy of the U.S. Embassy with the 
Cambodian authorities was an indispensable and decisive factor in 
generating effective law enforcement cooperation.
    These actions have paved the way for significant and continuing 
progress in mobilizing effective law enforcement responses to human 
trafficking in Cambodia. Cambodian police authorities have had a 
positive experience of effective counter-trafficking investigations and 
enforcement actions with IJM that produced arrests, proper charges, and 
compelling evidence for prosecution. They have participated in 
groundbreaking procedures for humanely conducting victim interviews in 
the presence of a social worker and an NGO lawyer-monitor while being 
videotaped. They have also requested further training from IJM in 
effective counter-trafficking investigations and enforcement actions, 
and have developed new relationships with local NGO's.
    Of course, it will be very important to continue to monitor the 
actions of the Cambodian authorities as they follow-up on these 
specific cases, and as they persevere in vigorous efforts to 
investigate and successfully prosecute sex trafficking crimes on an on-
going basis. Cambodia has had a very poor record of tolerating sex 
trafficking (especially among very young children) and such a record 
cannot be turned around overnight. But we believe that a very promising 
beginning has been made in supporting the Cambodian government in a new 
direction to seriously combat sex trafficking and commercial sexual 
exploitation.
    We believe these encouraging events help to serve as a model for 
what can be achieved when there is transparent reporting through the 
TIP Report, a meaningful application of the tier rating system, direct 
advocacy by U.S. authorities at the highest levels of government, and 
tangible, practical assistance to foreign governments in bringing 
rescue to trafficking victims and justice to perpetrators.
    IJM looks forward to continuing its constructive work with the U.S. 
State Department, foreign governments, and partner NGO's in helping 
make sure that the promises of U.S. policy in fighting sex trafficking 
and commercial sexual exploitation deliver tangible results to 
vulnerable women and children and hastens the day when these brutal 
enterprises of rape for profit are simply put out of business.
    Thank you very much.

    Senator Brownback. Thank you, and thank you for the work of 
your organization. It has done just wonderful, outstanding work 
in highlighting these problems and taking it to the appropriate 
authorities in the host countries and here as well, Gary. You 
do an outstanding job and I'm very appreciative of it.
    Professor Hughes, your statements were very condemning of 
U.S. Government policy, and that's why I wanted to get you here 
to testify today, or not of U.S. Government policy, but of 
action by several U.S. Government entities, and you've raised 
this in several articles. I've got one--I'm not sure of the 
date of this article, but I should look this up, ``Pro-
Prostitution Mafia in Russia, U.S. State Department Backs 
Legalization of Prostitution.'' Do you remember this article?
    Dr. Hughes. Yes.
    Senator Brownback. I received it last fall in November. 
When you raise these items, do you get a response from USAID or 
State Department about these policies that are backing the 
spread of prostitution?
    Dr. Hughes. In that particular case I was in contact with 
the Office of Global Affairs, and I knew that they had been 
working to try to make sure that Russia got a strong anti-
trafficking law passed, so I know that they had ongoing efforts 
to do that.
    Information that I was getting was that even though they 
were very clear that they wanted a very strong anti-trafficking 
policy, and I believe staff members from the Office of Global 
Affairs had even gone to Moscow to try to ensure that, there 
was continuing slippage, and it was really getting down to the 
wire as to what kind of, whether this was going to be really 
strong anti-trafficking legislation or whether it was going to 
be relatively weak, and that's why I wrote that.
    I know that the Office of Global Affairs made continuing 
efforts even after that to make sure that there was strong 
legislation drafted, and I hear that that has been successful.
    Senator Brownback. But that's on legislation on 
trafficking. What about, you're saying in this the State 
Department is backing legalization of prostitution in Russia.
    Dr. Hughes. No, what was happening was, the embassy was not 
in any way publicly backing legalization of prostitution. What 
was happening was there was a Duma party that had announced 
that they were going to draft legislation for the legalization 
of prostitution.
    In order to do that, what they needed was an anti-
trafficking law that had some loopholes in it so that 
eventually they could come together and dovetail, and what I 
was advocating for, and what I believe the Office of Global 
Affairs was pressing for was strong anti-trafficking 
legislation that would close those loopholes so that they 
couldn't then come in with complementary legislation to 
legalize prostitution, so no, I never said, and I know that the 
embassy was not advocating legislation that would have 
legalized prostitution.
    Senator Brownback. OK.
    Dr. Hughes. And I know that there had been some NGOs that 
had been on record as backing legalization of prostitution who 
were working to draft that, what I would call weak anti-
trafficking legislation.
    Senator Brownback. Were these NGOs funded partly by U.S. 
funds?
    Dr. Hughes. I believe so.
    Senator Brownback. So that there were U.S. funds going to 
groups, not the State Department itself, but to groups that 
were pushing for pro legalization of prostitution in Russia?
    Dr. Hughes. Right.
    Senator Brownback. I hope you can help us to identify some 
places where those funds are going, because I think, as 
Congressman Miller was pointing out, there is this direct 
nexus, and you pointed it out as well, between prostitution 
and--pulling this drive for trafficking in persons. I mean, 
basically this is the demand sector of the market, and if you 
legalize, and you say well, OK, it's OK, and we're going to 
just go ahead and have this demand sector here, you're going to 
continue to have trafficking in persons taking place----
    Dr. Hughes. Yes.
    Senator Brownback [continuing]. For this industry.
    When you approached me about what they are doing--because 
you gave some examples here about providing condoms to people 
who are forcibly in the prostitution business. How does USAID 
respond to your statements?
    Dr. Hughes. The couple of times that I have met with people 
in USAID I have to say that the first time or so they had a 
hard time believing me, because I know that these are really 
good people, and they would say that we would never support the 
legalization of prostitution, we don't know anybody that 
supports the legalization of prostitution, what are you talking 
about, and so I have to say that there has been a process of 
sort of getting through this--I'm not sure--you might call it 
denial, but a lot of it maybe has to do with sort of education 
to the way things really are in the world.
    But once we got through that, and once I was able to 
produce enough evidence to show that in fact these were 
statements that were appearing in reports that were written for 
USAID and so forth, they have been very open to talking to me, 
and really trying to work to make sure that the stated policy 
of the U.S. Government is the one that's implemented.
    Senator Brownback. So that they're opposed to prostitution, 
opposed to legalized prostitution, opposed to trafficking----
    Dr. Hughes. Yes.
    Senator Brownback [continuing]. And opposed to policy 
actions out of their agency that might support either of these, 
is that correct?
    Dr. Hughes. Yes, and I think it's going to be a challenge 
for them to get down to the subcontractor level to find out 
what is happening sometimes in the field, because I think that 
it can be a long way from the offices here in Washington to 
what their subcontractors are actually doing out there in the 
field, and I think that raising some of these issues has sort 
of challenged them to follow along down that path of who 
they're funding to find out what's happening in the field.
    Senator Brownback. Now, the examples you gave here today, 
were those of subcontractors to USAID grants that were giving 
condoms to people who had been trafficked into brothels?
    Dr. Hughes. The ones I said today, I'm not sure whether 
that money goes out--I know that those are U.S. Government 
funds. I don't know whether they're disbursed through USAID or 
not. That I don't know.
    Senator Brownback. Again, I hope you can work with us on 
identifying specific places, and if there are things that we 
can do either legislatively or through appropriations to stop 
that, or put limitations on use of funds going to those areas, 
we'd like to work with you and use your information to press 
that forward.
    And what about ILO and the WHO both recognizing and 
recommending the decriminalization of prostitution, and they 
continue to press that policy forward?
    Dr. Hughes. Well, what ILO did is, they came out with this 
report called ``The Sex Sector,'' in which they looked at those 
countries and really did sort of an economic analysis of how 
much the sex industry was contributing to the gross national 
product and so forth and said that, you know, this is such a 
big industry, it's making so much money, really we need to have 
what they said was the official recognition of the sex sector.
    Now, they stopped short of calling for legalization of 
prostitution. They did not call for that, but I can't imagine 
how you could have an official recognition of an economic 
sector without doing that.
    And then with the World Health Organization, they had the 
announcement that they would recommend decriminalization of 
prostitution as an effort to combat HIV.
    What I find in a lot of the reports that are written is, 
there tends to be a lot of doublespeak. On one hand they'll 
say, of course we oppose the abuse and trafficking of women, 
but maybe we should go ahead and decriminalize it or legalize 
it in order to help out the women, and what happens then, once 
you challenge them and say, well, wait a minute, you're calling 
for legalization of prostitution, oh no, early, somewhere else 
in the report we said this, and so what I would suggest is that 
you ask for clarification from these organizations of what 
their policy is and then see if it matches what the current 
U.S. policy is.
    Senator Brownback. We will do that, because those seem to 
be just outlandish positions for them to take, and even 
identifying a sex sector of the economy in positive terms, when 
this is just so incredibly exploitative of women and children 
just is beyond me to see.
    In the military bases you raise an issue there which I 
think was very good of you to raise as well, the fueling of 
prostitution around military bases. Is DOD coming up with an 
effective strategy now to try to address this issue?
    Dr. Hughes. I don't know. I don't know the answer to that.
    Senator Brownback. You raise it as a key area and a key, 
again, demand side sector for the sex industry, for 
prostitution, that we need to look at that as well.
    Mr. Haugen, I appreciate your points, and also about the 
actual convictions. I raised that with the Indian Government 
myself in December. They had really stepped up from the time 
previously I had been there in raising the issue about the 
trafficking taking place--the previous time, 3 years ago when I 
raised it, it was kind of, this isn't a big problem, we're not 
that concerned about it, we've got a billion people here to 
work with sort of attitude--to this time them saying no, it's a 
serious problem, we're working on it, and yet still there 
hadn't been much in the way of convictions stepping forward, 
and I do think that's the relevant data point, as you put it, 
and press with it.
    What's your estimation of the last TIP report? Was it 
objectively an accurate report of the situation around the 
world, and were countries properly categorized as tier 1, 2, 
and 3 in that report?
    Mr. Haugen. I think the difficulty with last year's TIP 
report is that it came up with a summary conclusion about where 
the country would be placed with a description of why it's 
being placed there that was generally just vague and didn't 
provide actual, factual objective data so that you could 
understand, well, what was going on inside the black box such 
that when you put the country in it came out on a specific 
tier.
    And that is why we're so pleased this year for the 
commitment over the coming year to begin to require that 
there's actually specific information, something like 
convictions is just a historical fact that exists within a 
country, it's a factual matter, it's actually happened, and 
it's the activity that a government has itself taken.
    So governments are in a very good position, in the best 
position, of course, to report on their own activity, and we 
require governments to report tremendous amounts of information 
on economic matters and trade matters, commerce matters in 
order for them to maintain a certain kind of privilege in terms 
of their trading status, and I think it's a very 
straightforward thing to require clear information on what it 
is that they're doing. How many people did you send to jail for 
trafficking-related offenses this year? How many police did you 
discipline?
    For instance, last year's report frequently said--in 
countries that had the most horrendous trafficking record it 
says, well, a big problem is police corruption. Well, the 
police are the employees of the government reporting on police 
corruption, and so the question you want to ask that government 
is, then, well, if corruption is a big problem, how many police 
were dismissed last year because of their complicity with sex 
trafficking operations, and you can produce objective data that 
all of us can look at.
    And someone might say, well, that was enough convictions, 
and someone might say that wasn't enough convictions, someone 
might say, well, that was enough disciplinary action and 
someone say that that wasn't, and we could have reasonable, 
intelligent, transparent conversations about where a country 
belongs once we have that data on the table, and that's what 
we're looking forward to in this year's report.
    Senator Brownback. Particularly focusing on East Asia and 
the implementation--you mentioned the example in Cambodia. I 
want you to talk about that region of policy and programmatic 
priorities that need to be implemented to reduce the 
trafficking, to really address it in Thailand, in Cambodia, in 
Burma, in the region, Vietnam, in that region. Do you see 
specific items that need to be done in addition to the example 
that you cited, and programmatic priorities that need to be 
pushed by the U.S. Government?
    Mr. Haugen. It's a basic principle of good management and 
planning in this era that you have your end in mind before you 
set out on an enterprise, and certainly the indispensable end 
in mind that every government should have is, how are we 
actually going to convict people for these offenses, because 
then it forces you to solve all of the problems that stand in 
the way from where you are now to actually achieving that, 
because you can do all kinds of education programs, you can 
have awareness, you can have shelters, but if no one ends up 
going to jail for these things you will never be able to keep 
up with the ingenuity and the entrepreneurship of the 
traffickers.
    If there was an epidemic of rape here in Washington, DC we 
wouldn't expect there to simply be education seminars, we 
wouldn't expect there to be just shelters for the victims, we 
would want to know whether or not the police are actually 
convicting and sending to jail the rapist who is committing 
this, so for each one of these governments, what we've been 
urging is the adoption of concrete goals of saying, we are, 
next year, going to seek to achieve x number of convictions for 
these offenses, and so to do that we're going to conduct a 
vigorous set of investigations, of raids, of prosecutions, and 
then to develop some specialized units which are outside of the 
local street-level corruption who can actually do the 
investigation and make the cases and also fast-track these 
prosecutions through judicial systems that are sometimes very 
much bogged down. We've seen judges given special dockets of 
these cases that then begin to move more quickly.
    But as long as you have the end in mind of where you want 
to finally be, then the government has co-ownership of all the 
problems that it takes to get there, rather than having a 
government not really wanting to solve the problem. If they've 
made a commitment to the end product, which is a credible law 
enforcement deterrent to sex trafficking, then we, speaking of 
the U.S. Government and NGOs, are able to then help them solve 
all of those problems that it takes to actually get there.
    Senator Brownback. Are you getting pretty good support from 
the countries in the region and from the U.S. Government for 
that type of approach?
    Mr. Haugen. I think we're getting solid support from some 
embassies, like in Cambodia where they're extremely vigorous in 
this regard, and we've had some excellent cooperation with the 
Philippine authorities, where we actually were able to conduct 
some raids on some businesses that were left over actually from 
when the U.S. servicemen were there, and the brothels were 
still there, and some 13-year-old girls were being sold for 
their virginity. One American was actually operating that 
brothel, and we were able to rescue the girls out, get them 
prosecuted, and those places are shut down.
    So all of that was done in cooperation with the National 
Bureau of Investigation there in the Philippines with great and 
robust assistance, and I guess it's too early to tell both the 
vigor of the other embassies throughout the region and the 
governments that we're trying to work with, but we're very 
hopeful.
    Senator Brownback. What about Thailand? That's been a long, 
strong ally of the United States and also a place where there's 
been a great deal of prostitution that's occurred over a period 
of years as a business enterprise almost. How are we doing in 
Thailand, and it would also be one of the big market draws 
within the region.
    Mr. Haugen. Thailand has a significant problem with sex 
trafficking, and my sense is that the U.S. Government and the 
embassy there has started to become quite vigorous and robust 
in confronting the Thai authorities with that challenge.
    I know that there are many Thai NGOs that are working very 
hard to try to achieve better prosecutions, but I think the 
jury is still out. We will just need to wait and see, because I 
haven't seen all of the data this year on what the Thais have 
been able to do over this past year, but I think that's what is 
going to be so helpful about this report when it comes out, is 
that it's going to have objective data that we can all look at 
together and make an assessment of that record.
    Senator Brownback. Dr. Hughes, I am still struck by the 
statements that you made, and now that you have testified and I 
have read some of your articles and answered these questions, 
what I hear you saying, and correct me if this is inaccurate, 
is that the United States is funding a fair number of these 
problems through NGOs or USAID work, but we're doing it out of 
lack of knowledge of the true situation on the ground, rather 
than an overt policy that we are trying to support legalized 
prostitution, or things that would create a demand market for 
people that are trafficked. Is that accurate, that this is not 
a purposeful policy, but it ends up happening by virtue of just 
not really understanding the way the world works?
    Dr. Hughes. I certainly think that's an accurate 
characterization now. If we go back a number of years when some 
of these initial programs were set up in the mid-nineties, I 
don't know the answer to that, but I'm not sure that the 
decision to fund some of these groups had to come from the 
highest level, but there had to be somebody that was aware of 
the kind of programs that were being developed.
    For example, what I described in the op-ed on Svay Pak, 
Cambodia, someone in the administration of USAID had to know 
what the Population Council's Horizon Project was doing there, 
and it wasn't only the people on the ground in Cambodia that 
were doing that. Exactly where that point is, I don't know the 
answer.
    Senator Brownback. I think most Americans would be outraged 
to think that their taxpayer dollars would be going for these 
types of activities that you've described.
    Dr. Hughes. Yes, I agree.
    Senator Brownback. Is that the kind of response that you 
are getting from these articles? I would think you would get a 
very strong positive response from the public and very strong 
comments from governmental authorities that we're going to get 
right on top of this, we're not going to let this take place.
    Dr. Hughes. I think that some of the things that I have 
written have been quite shocking, and I think that there have 
been, some of the responses first have been some denial, like, 
this can't possibly be true, but one of the things that I did 
with USAID is, I presented them not only with a copy of the op-
ed, but with a footnoted copy that had all the references, and 
then I printed out all the references and handed them.
    So they had a whole packet of information and were able to 
see that, in fact, everything I said in there was documented 
and in fact came from documents that were mostly from USAID 
reports, and I think that once I've been able to present that 
kind of evidence to people they say, wow, you're right, this is 
really happening, we're going to get on this right away.
    So that's the response that I've gotten through these, but 
I have to say that the initial response is not always very 
positive.
    Senator Brownback. It usually isn't to bad news----
    Dr. Hughes. Yes.
    Senator Brownback [continuing]. When it comes forward.
    Both of you heard me read statistics on the infection of 
prostitutes with the HIV virus, and I was putting forward the 
point that this prostitution is a key vector for the spread of 
HIV. Do either of you have a thought, whether you agree or 
disagree with that point? Dr. Hughes.
    Dr. Hughes. No, I absolutely agree that prostitution and 
trafficking is responsible for transmission of HIV throughout, 
not only among the women and the men, but then throughout the 
community as men go back into the community and have sex with 
their wives or other people.
    I think in the past what has happened is that the focus has 
been on just the women in prostitution. In other words, if we 
can just get them to use condoms we'll break the cycle that 
way, and in fact some of the statistics that you read earlier 
show that there are still very serious problems, and all it 
takes is a few brutal men who don't want to wear the condoms, 
which happens frequently, and the woman or girl becomes 
infected anyway.
    So I think that we actually would be much more successful 
in combating HIV/AIDS if we find ways to interrupt sex 
trafficking, and to stop the sex trafficking and prostitution 
rather than just trying to promote the use of condoms, and as I 
said, even if we were successful in that, that does not address 
the slavery.
    Mr. Haugen. And if I might just add, Senator, I don't think 
anybody doubts that there's a tremendous nexus between 
prostitution and the spread of AIDS, and certainly between sex 
trafficking, and as we understand sex trafficking more, and the 
brutality of forced prostitution, we can understand why the 
vision of trying to prevent the spread of AIDS simply through 
education programs with the provision of condoms just doesn't 
work in the coercive environment in which sex trafficking takes 
place in terms of the sexual encounter.
    This is not a place where the children get to bargain 
insistently about well, no, I would really like you to wear a 
condom. No, this is a situation of great brutality, where the 
customers do whatever they pay for, and especially the idea 
that the victims are frequently young, which means they bleed 
more in the process, and they end up becoming more likely to 
not only get HIV, but to also spread it as well.
    So any idea that we are going to somehow be able to stop a 
huge proportion of the AIDS epidemic which goes forth in the 
coercive environment both of sex trafficking and of sexual 
violence, and that somehow we're going to do that with only 
education programs or the provision of condoms, doesn't 
appreciate the purely coercive nature of the enterprise.
    Senator Brownback. You have really got to get at the root 
of it.
    Well, thank you both very much. I am an admirer of your 
work, and you do such a wonderful job, and I appreciate you 
giving of your time and talents to come here today and testify, 
and I look forward to working with both of you in either 
legislation or appropriations of ways that we might be able to 
address some of these problems effectively.
    Mr. Haugen. Thank you, Senator.
    Dr. Hughes. Thank you.
    Senator Brownback. Thank you all for your attendance. The 
record will remain open for the requisite number of days, and 
the hearing is adjourned.
    [Whereupon, at 4:12 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


              Additional Question Submitted for the Record


Response of Hon. John R. Miller, Senior Advisor and Director, Office to 
 Monitor and Combat Trafficking in Persons, to an Additional Question 
        for the Record Submitted by Senator Russell D. Feingold

    Question. ILO and UN studies indicate Laos is the second or third 
largest source for women and children trafficked into Thailand to work 
in brothels and sweatshops. Laos is reportedly developing a National 
Plan of Action to prevent illegal trafficking of women and children and 
has a bilateral agreement with Thailand for that purpose. Can you tell 
me what we know about the scale of the trafficking problem out of Laos, 
the status of the agreement with Thailand and the Laotian national 
action plan, the role of U.S. assistance, if any, and how cooperative 
the Government of Laos has been on this issue? Do we know of any U.S.-
based criminal organizations involved in the trafficking of women and 
children from Laos or any, illegal trafficking from Laos into the 
United States?

    Answer. The Department is not aware of any firm statistics on the 
number of Lao trafficking victims. Some NGO surveys indicate that 
roughly 15-20,000 Lao may be trafficked annually, almost all to 
Thailand. Such information, however, is not verifiable.
    The situation is further complicated because trafficking is caught 
up in the overall pattern of labor migration. Regional surveys indicate 
that as many as 100,000 Lao people may travel to Thailand seasonally, 
for agricultural labor along the borders and for manual labor in the 
cities. Determining the number of Lao economic migrants versus Lao 
trafficking victims is difficult.
    In the past most Lao people who went to Thailand in search of work 
were Lowland Lao from along the border, and Lowland Lao probably still 
constitute the majority of the migrant work force. However, 
increasingly the groups most vulnerable to trafficking into some form 
of indentured labor or prostitution are highland minorities in the 
interior.
    The government of Laos officially condemns trafficking in persons, 
but the government is severely constrained in its direct efforts by a 
lack of resources. Most anti-trafficking projects are carried out by 
international organizations and NGOs, and include consciousness raising 
and skills development for at-risk groups. But the government also 
makes some direct efforts. Government-controlled party organizations 
alert Lao citizens to the dangers of trafficking in connection with 
international travel. State-controlled television and radio have 
broadcast anti-trafficking spots funded by NGOs and the government. The 
government cooperates with UN agencies, particularly the UN Interagency 
Project, to monitor, document and suggest remedies for trafficking-
related problems and has provided salaried government employees to work 
on a project of the International Organization for Migration (IOM) to 
gather data on prevention and protection statistics.
    The Lao Ministry of Labor and Social Welfare (MOLSW) is the 
government's main ministry responsible for combating trafficking. The 
MOLSW works to assist children who may be vulnerable to trafficking, 
working with children on prevention and reintegration issues. MOLSW, 
with NGO help, has also done outreach through television and radio to 
warn about the dangers of trafficking.
    Law enforcement efforts are an area for improvement. There is no 
specific anti-trafficking law in Laos, but there are laws against 
kidnapping and prostitution. The central government keeps no data on 
efforts of local officials to prosecute traffickers. MOLSW has provided 
some training of law enforcement officials on trafficking, but much 
more needs to be done. Low-level trafficking-related corruption also 
remains a concern.
    In a significant move in 2002, Laos and Thailand signed a 
memorandum of understanding (MOU) regarding border issues, including 
trafficking, with particular reference to labor and repatriation 
procedures. While implementation procedures are still being worked out, 
the NGOs in Laos working on trafficking regard this MOU as an essential 
step. This MOU is one of the first in the Mekong region to attempt to 
regularize the return of trafficking victims. It represents an 
important bilateral step towards more regional cooperation on the part 
of both the Lao and Thai governments.
    The Department of State funds two NGOs operating in Laos. Village 
Focus International received $100,000 (FY02) for an awareness raising 
campaign against trafficking. The project focused on village-based 
schools in Southern Laos. An NGO consortium (includes World Education 
and World Learning) received $299,853 (FY02) to prevent human 
trafficking in Mekong border communities. The Department also funds the 
Asia Foundation (FY01) to work with Laos Women's Union and Lao Youth 
Union to raise awareness of gender discrimination. None of these 
projects was directly connected to the Laos-Thailand MOU.
    The State Department's Office to Monitor and Combat Trafficking has 
no information about U.S.-based criminal organizations involved in the 
trafficking of women and children from Laos. We have no information on 
trafficking from Laos into the United States.


</pre></body></html>
